JANUARY 12, 2011
                                         REDACTED FOR PUBLIC RELEASE
                       ____________________________________________________________________________




                                                    
                                                                         OFFICE OF AUDITS




   REVIEW OF NASA’S MANAGEMENT OF ITS SMALL
    BUSINESS INNOVATION RESEARCH PROGRAM




                                                        OFFICE OF INSPECTOR GENERAL




                                                                          National Aeronautics and
                                                                              Space Administration




  REPORT. NO. IG-11-010-R
                      REDACTED FOR PUBLIC RELEASE




THE FULL VERSION OF APPENDICES B AND E TO THIS REPORT INCLUDED INFORMATION
THAT MAY BE CONSIDERED CONTRACTOR PROPOSAL INFORMATION. WE HAVE
REDACTED FROM THE APPENDICES INFORMATION THAT WOULD IDENTIFY THE SPECIFIC
PROPOSERS. WHERE SUCH INFORMATION HAS BEEN REDACTED IS NOTED.




Final report released by:




Paul K. Martin
Inspector General




Acronyms

DCAA         Defense Contract Audit Agency
FAR          Federal Acquisition Regulation
GSA          General Services Administration
NRC          National Research Council
OIG          Office of Inspector General
OMB          Office of Management and Budget
SBA          Small Business Administration
SBIR         Small Business Innovation Research Program



                                                          REPORT No. IG-11-010-R-R
                                                       REDACTED FOR PUBLIC RELEASE
JANUARY 12, 2011




                                                                                        OVERVIEW

       REVIEW OF NASA’S MANAGEMENT OF ITS SMALL BUSINESS
                  INNOVATION RESEARCH PROGRAM
                                                                                          The Issue

   Congress created the Small Business Innovation Research (SBIR) program in 1982 to
   stimulate technological innovation, increase participation by small businesses and
   disadvantaged persons in federally funded research and development, and increase
   private-sector commercialization of innovations derived from federally funded research
   and development efforts. NASA’s SBIR Program is the third largest of the 11 Federal
   agencies that are required to participate in the program, awarding an average of
   $112 million annually to small businesses from 2004 through 2008.1

   The NASA Office of Inspector General (OIG) initiated this audit because recent
   investigations by the OIG’s Office of Investigations identified cases of fraud, waste, and
   abuse in NASA’s SBIR Program that raised questions about the overall effectiveness of
   the Program’s internal controls. The objective of our audit was to examine these internal
   controls and determine whether NASA effectively managed the SBIR Program. To
   accomplish that objective, we examined whether:
            management had established internal controls to ensure evaluations of SBIR
             technical proposals were merit-based and objective;
            the Agency performed adequate due diligence to identify unallowable and
             unsupported costs;
            management had established adequate criteria and procedures for selecting SBIR
             awards based on best value; and
            internal controls were adequate to prevent and detect fraud and abuse in the SBIR
             Program.

   The scope of our audit included all SBIR technical proposals submitted to and contracts
   awarded by NASA for program year 2008.2 To meet our audit objectives, we selected a
   statistical sample of 67 SBIR awards for review. Details of the audit’s scope and
   methodology are in Appendix A.

   1
       The 11 agencies participating in the Federal SBIR program are the Departments of Agriculture,
       Commerce, Defense, Education, Energy, Health and Human Services, Homeland Security,
       Transportation, the Environmental Protection Agency, NASA, and the National Science Foundation.
   2
       SBIR program year 2008 encompassed proposals submitted and contracts awarded in response to the
       2008 NASA SBIR Program Solicitation, which included 2008 Phase 1 awards and 2007 Phase 2 awards.



REPORT No. IG-11-010-R
     REDACTED FOR PUBLIC RELEASE                                                                            OVERVIEW



     Results

     Our review found that while NASA’s initial choice of SBIR award recipients appeared
     objective and merit-based, its oversight and monitoring of awards was deficient.
     Specifically, SBIR awards in 2008 contained an estimated $2.7 million in unallowable
     and unsupportable costs, including travel and equipment expenses. In addition, we found
     that NASA officials lacked adequate procedures to ensure SBIR applicants’ past
     performance had been considered when selecting recipients of approximately $85.7
     million in “Phase 2” SBIR funds. Federal acquisition rules require consideration of past
     performance. Finally, NASA has not implemented appropriate internal controls to
     prevent fraud and abuse in contract awards. Consequently, some SBIR award recipients
     may have received multiple SBIR awards from different Federal agencies for the same
     research or NASA may have received highly questionable research products for its
     contract money.

     Technical Proposals Were Appropriately Evaluated. SBIR Program officials
     established effective internal controls to ensure that evaluations of SBIR technical
     proposals were merit-based and objective. Program officials established a clear scoring
     methodology for evaluating technical proposals and procedures for ensuring evaluations
     were objective. In addition, Program officials engaged Mission Directorate and Center
     personnel in SBIR activities to ensure the infusion of SBIR research into NASA projects.

     NASA Needs Better Controls to Prevent Unallowable and Unsupported Costs. A
     significant percentage of SBIR contracts awarded by NASA in 2008 contained
     unallowable and unsupported costs. We reviewed a randomly selected sample of 67
     SBIR contracts and found that 17 (25 percent) included unallowable or unsupported
     costs. Specifically, we found unallowable travel and equipment costs, unallocable costs,
     and unsupported costs in the sample of SBIR contracts we examined to include:

               Unallowable travel costs. NASA awarded contracts with unallowable travel
                costs totaling $9,255 on 4 of the 36 (11.1 percent) Phase 1 SBIR awards we
                reviewed.

               Unallowable equipment costs. NASA awarded contracts with unallowable
                equipment costs totaling $234,354 on 6 of the 67 (8.9 percent) awards we
                reviewed.

               Unallocable costs.3 NASA awarded $167,014 in unallocable direct costs on 7 of
                the 67 (10.4 percent) awards we reviewed.

     3
         FAR 31.201-4, “Determining allocability,” states that a “cost is allocable if it is assignable or chargeable
         to one or more cost objectives on the basis of relative benefits received or other equitable relationship” –
         i.e., a cost is allocable to a Government contract if it (a) is incurred specifically for the contract;
         (b) benefits both the contract and other work, and can be distributed to them in reasonable proportion to
         the benefits received; or (c) is necessary to the overall operation of the business, although a direct
         relationship to any particular cost objective cannot be shown.



ii                                                                                         REPORT No. IG-11-010-R
OVERVIEW                                       REDACTED FOR PUBLIC RELEASE
__________________________
         Unsupported costs. NASA awarded contracts containing $117,932 in
          unsupported costs in 2 of the 67 (3 percent) awards we reviewed.

   Based on our statistical projections, we estimate that NASA awarded contracts with $2.7
   million in unallowable and unsupported costs during program year 2008 alone.

   We determined that NASA awarded these SBIR contracts with unallowable and
   unsupported costs primarily because contracting officers and technical evaluators did not
   perform adequate due diligence in reviewing applicants’ proposed costs. If NASA took
   the corrective actions outlined in this report to address these unallowable and
   unsupported costs, we estimated that the Agency could put $13.3 million in SBIR funds
   to better use during program years 2010 through 2014.

   NASA Needs to Consider Past Performance When Considering SBIR Proposals.
   Our analysis of randomly selected contracts also found that SBIR Program managers did
   not appropriately consider past performance information in evaluating and selecting the
   Phase 2 awards. The Office of Federal Procurement Policy states that “the use of past
   performance as a major evaluation factor in the contract award process is instrumental in
   making best value selections.” In addition, Federal Acquisition Regulations require
   agencies to use past performance information in awards of more than $100,000 to ensure
   the selected proposal represents the best value (Phase 2 SBIR awards have a maximum
   value of $750,000). However, NASA policies and procedures do not require
   consideration of past performance information in proposal evaluations and award
   selections. Evaluating this factor in future SBIR award selections will enable the Agency
   to better predict the quality of future work and help achieve Program goals.

   NASA Needs to Improve Its Ability to Prevent and Detect Fraud in the SBIR
   Program. In analyzing investigations conducted by NASA OIG and others, we found
   that SBIR award recipients received multiple SBIR contracts for essentially the same
   research and provided duplicate deliverables or questionable research products. Some
   recipients also violated Small Business Administration (SBA) rules, such as when actual
   effort and costs differed materially from proposed effort and costs, contractors used SBIR
   funds for noncontract purposes, and technical personnel violated conflict of interest
   policies.

   During our review, we identified 24 internal controls that, if implemented correctly,
   would help prevent and detect SBIR fraud and abuse. Under the Federal Managers
   Financial Integrity Act and Office of Management and Budget requirements, agency
   managers are required to establish effective internal controls. When we examined
   NASA’s SBIR Program, we found Agency managers had not established 14 of the 24
   controls (58 percent). In particular, we found that NASA had not implemented 9 of 19
   controls we identified as critical in preventing and detecting fraud. Consequently, the
   SBIR Program remains vulnerable to fraud and abuse. For example, we performed two
   data mining tests to identify firms that might have received duplicate awards or might
   have submitted duplicate deliverables and we identified potential instances of duplicate
   awards and duplicate deliverables that have a combined value of approximately
   $28.6 million.


REPORT No. IG-11-010-R                                                                          iii
     REDACTED FOR PUBLIC RELEASE                                                         OVERVIEW



     Management Action

     We recommended that the Director, Innovative Partnerships Program Office, in
     consultation with the Assistant Administrator for Procurement, provide NASA technical
     evaluators with additional training to ensure that they know how to perform a preliminary
     assessment of cost allowability during the selection and evaluation stage. In addition, we
     recommended that the Assistant Administrator for Procurement improve the cost review
     procedures used during the contract award stage to ensure that contracting officers take
     appropriate action when unallowable and/or unsupported costs are identified.

     We also recommended that the Director, Innovative Partnerships Program Office,
     develop policies and procedures for using past performance information in the selection
     of Phase 2 awards. In addition, the Director should require that the annual solicitation for
     SBIR proposals outline the performance assessment methodology; designate
     responsibility for collecting past performance information; include past performance
     information in the scoring methodology and scores for Phase 2 proposals; and require
     technical officers to assess a firm’s past performance on Phase 2 awards and to document
     the assessment. Further, we recommend that the Director implement critical internal
     controls that are not currently being utilized by NASA in its SBIR program. In addition,
     the Director should assess implementation costs and benefits to NASA for the remaining
     controls we identified as noncritical.

     Finally, we recommended that NASA’s Program Executive for the SBIR Program contact
     the SBA and the General Services Administration to discuss implementing automated
     controls in databases operated by those agencies to enhance cross-agency fraud detection.

     Because of the recent merger of NASA’s Innovative Partnership Office with the Office of
     the Chief Technologist, the Chief Technologist provided comments in response to the
     draft of this report (see Appendix E). Consequently, the applicable recommendations in
     this final report are addressed to the Chief Technologist.

     Although the Chief Technologist did not agree with the findings on unallowable and
     unallocable costs (a detailed evaluation of the Agency’s response begins on page 10), he
     stated that the report accurately highlights “very important issues and weaknesses in the
     integration of the Nation’s SBIR Program,” generally concurred with our
     recommendations, and set forth a series of planned actions the Agency agreed to take in
     response. We consider these planned actions to be responsive to our recommendations,
     and accordingly we consider the recommendations to be resolved. We will close the
     recommendations upon completion and verification of the proposed corrective actions.

     The Chief Technologist stated that NASA will develop a training module for technical
     evaluators to improve the quality of cost reviews and completeness of the technical
     evaluation forms; revise templates, checklists, and file documentation to ensure costs are
     appropriately analyzed, supported, dispositioned, and documented; and provide all
     employees assigned to the SBIR Program additional training on the analysis of direct and



iv                                                                         REPORT No. IG-11-010-R
OVERVIEW                                       REDACTED FOR PUBLIC RELEASE
__________________________
   indirect costs. He also stated that NASA modified the 2010 SBIR solicitation to
   emphasize that past performance would be evaluated, made contracting officers
   responsible for collecting and reviewing past performance information, and required
   contracting officer technical representatives to assess past performance when the SBIR
   contract is completed. Additionally, technical evaluators will be provided access to past
   performance information.

   With respect to our recommendations regarding implementation of additional internal
   controls, Chief Technologist stated that 9 critical controls we recommended will be
   implemented or partially implemented and one noncritical control we recommended will
   be evaluated for implementation. In addition, he said NASA will meet with the SBA and
   the General Service Administration to discuss implementing the recommended controls
   that require coordination with those agencies.




REPORT No. IG-11-010-R                                                                         v
JANUARY 12, 2011                   REDACTED FOR PUBLIC RELEASE




                                                         CONTENTS

   INTRODUCTION
      Background __________________________________________ 1
      SBIR Program’s Contribution to NASA’s Mission ______________ 4
      Objectives ___________________________________________ 6

   RESULTS
      SBIR Program Officials Appropriately Managed Evaluations of
                 Selections of Technical Proposals _______________ 7
      NASA Needs Better Controls to Prevent Unallowable and
                 Unsupportable Costs _________________________ 9
      NASA Needs to Consider Past Performance When Considering
                 SBIR Proposals ____________________________ 18
      NASA Needs to Improve Its Ability to Prevent and Detect
                 Fraud in the SBIR Program ___________________ 22

   APPENDIX A
      Scope and Methodology _______________________________ 32
      Review of Internal Controls _____________________________ 34
      Prior Coverage _______________________________________ 35

   APPENDIX B
      Questioned Costs_____________________________________ 36

   APPENDIX C
      Sampling Methodology and Projection of Results ____________ 38

   APPENDIX D
      Controls to Prevent and Detect Fraud and Abuse ____________ 41

   APPENDIX E
     MANAGEMENT’S COMMENTS _________________________46

   APPENDIX F
      Report Distribution ___________________________________ 66




REPORT No. IG-11-010-R
JANUARY 12, 2011                                         REDACTED FOR PUBLIC RELEASE




                                                                                    INTRODUCTION


Background

   Authorization and Scope of the Federal SBIR Program. Congress created the Small
   Business Innovation Research (SBIR) program in 1982 to stimulate technological
   innovation, increase participation by small and disadvantaged businesses in federally
   funded research and development, and increase private-sector commercialization of
   innovations derived from federally funded research and development efforts.4 NASA’s
   SBIR Program is the third largest of the 11 Federal agencies that are required to
   participate in the SBIR program.5 For program years 2004 through 2008, NASA
   annually awarded, on average, $112 million through the Agency’s SBIR Program to 422
   participants.

   Pursuant to Executive Order, the Small Business Administration (SBA) is responsible for
   monitoring and coordinating the SBIR activities of participating Federal agencies.6

   SBIR Eligibility Criteria. To participate in the SBIR Program, small businesses must
   meet the following criteria:

            American-owned. Businesses must be at least 51 percent owned and controlled
             by one or more individuals who are citizens of, or permanent resident aliens in,
             the United States.

            Operated for profit. Businesses must be organized for profit with a place of
             business located in the United States that operates primarily within the United
             States or makes a significant contribution to the United States economy through
             payment of taxes or use of American products, materials, or labor.

            Principal investigator employed by the small business. The principal
             investigator must be primarily employed (at least 51 percent in a calendar year)
             by the business at the time of an award and during the period of performance.

            Limited in size. Businesses are limited to 500 or fewer employees, including
             affiliates.

   4
       Public Law 97-219 (1982), Small Business Innovation Development Act of 1982. Small Business
       Reauthorization Act of 2000.
   5
       The 11 agencies participating in the Federal SBIR program are the Departments of Agriculture,
       Commerce, Defense, Education, Energy, Health and Human Services, Homeland Security,
       Transportation, the Environmental Protection Agency, NASA, and the National Science Foundation.
       Each year the 11 agencies award a total of approximately $1.8 billion in SBIR funds to approximately
       5,800 recipients.
   6
       Executive Order 13329, February 26, 2004, “Encouraging Innovation in Manufacturing.”



REPORT NO. IG-11-010-R                                                                                        1
    REDACTED FOR PUBLIC RELEASE                                                            INTRODUCTION



    SBIR Award Phases. The SBIR Program is divided into three phases as shown in
    Figure 1.

                                         Figure 1. SBIR Program Phases

    Phase 1                                    Phase 2                             Phase 3

           • provides small                        • provides for further               • provides the firm an 
            businesses with a                       development of the                   opportunity to move 
            start‐up period to                      scientific and                       the technology 
            establish the scientific,               commercial promise                   innovations from 
            technical, and                          of research from                     Phase 2 to the 
            commercial feasibility                  Phase 1                              marketplace 
            of the proposed                        • includes only firms                • provides funds 
            innovation                              that have successfully               through normal 
           • awards of up to                        completed Phase 1                    procurement 
            $100,000                               • awards of up to                     processes at the 
           • 6‐month period of                      $750,000                             agency and/or private 
            performance                            • 24‐month period of                  sector procurements
                                                    performance




    NASA’s Implementation of the Federal SBIR Program. During program year 2008,
    NASA awarded 350 SBIR Phase 1 purchase orders valued at $34.7 million and 143
    Phase 2 contracts valued at $85.7 million. We could not determine the number of Phase
    3 contracts during the program year because the Agency did not maintain reliable records
    identifying Phase 3 activity. Therefore, we limited our review to Phase 1 and Phase 2
    SBIR awards.

    According to NASA’s 2008 SBIR Solicitation, the Agency’s objective for its SBIR
    Program is to take the technological innovations developed by the program and infuse
    them into various Mission Directorates’ programs and projects. NASA’s SBIR Program
    is managed by the Innovative Partnerships Program Office (SBIR Program Office) at
    NASA Headquarters and the Program Management Office at Ames Research Center
    (Ames Program Management Office).7 The SBIR Program Office and the Program
    Executive provide overall policy direction and make the final selection of award
    recipients. The Ames Program Management Office is responsible for developing annual
    SBIR solicitations and associated guidelines and establishing procedures to evaluate and
    select proposals.

    At NASA, the SBIR process is divided into five stages: solicitation, evaluation and
    selection; contract award, post-award administration, and close-out. The solicitation
    stage involves issuing an annual SBIR request for research proposals. The evaluation and
    selection stage includes ranking research proposals and selecting award recipients. The
    contract award stage includes reviewing proposed costs and making contract awards.
    7
        The NASA SBIR program operates in partnership with NASA’s four Mission Directorates: Aeronautics
        Research, Exploration Systems, Science, and Space Operations.



2                                                                                REPORT No. IG-11-010-R
INTRODUCTION                                              REDACTED FOR PUBLIC RELEASE



    The post-award administration stage includes oversight of the SBIR contract during its
    period of performance. The contract close-out stage assesses whether all contract terms
    and conditions have been met. The activities performed during each of these stages are
    illustrated in Figure 2.

                                      Figure 2. NASA’s SBIR Process


               •Managers in NASA’s Mission Directorates develop research topics 
               •Program Management Office issues the annual solicitation for proposals
Solicitation


           •Technical personnel with expertise in research topic evaluate technical proposals for that topic
Evaluation •Mission Directorates rank and recommend proposals
    and    •Project Management Office determines number of proposals that can receive awards
 Selection •Source Selection Official selects award recipients  

               •Contracting officer assesses the allowability of proposed costs
               •Contracting officer appoints technical oversight personnel
 Contract
               •Contracting officer awards contracts 
  Award


           •Contracting officer's technical representative reviews progress and final reports
           •Technical officer reviews contractor invoice
Post‐award
           •Contracting officer approves invoice for payment
  Admin‐
 istration

               •Contracting officer ensures that the contract is complete 
               •Contracting officer approves final invoice for payment
Close‐out



    Since 1997, the NASA OIG Office of Investigations has investigated 51 cases of alleged
    SBIR fraud at NASA. We conducted a risk analysis of these 51 cases to determine
    whether particular stages of the NASA SBIR award process were more vulnerable to
    fraud, waste, and abuse than others. Based on this analysis, we limited the scope of this
    audit to three stages of the process: evaluation and selection, contract award, and post-
    award administration.

    OIG Oversight of the SBIR Program. As noted above, since 1997 the OIG has
    investigated 51 allegations of potential fraud, waste, or abuse in NASA’s SBIR Program.
    Eight of these allegations resulted in criminal convictions, civil judgments, or
    administrative corrective action and five additional cases were under investigation as of
    September 2010.

    In April 2004, the OIG issued a Management Alert Memorandum to NASA’s Associate
    Administrator for the Office of Procurement containing a series of recommendations to


REPORT No. IG-11-010-R                                                                                         3
     REDACTED FOR PUBLIC RELEASE                                                                INTRODUCTION



     improve the SBIR Program, including that SBIR contractors be required to recertify
     compliance with program eligibility criteria before receiving final payment and that
     contracting officer technical representatives receive training regarding post-award
     administration of SBIR contracts. In response to our recommendations, NASA required
     SBIR contractors to recertify compliance with requirements of the SBIR Program Policy
     Directive before receiving final payment. In addition, the Ames Program Management
     Office collaborated with the Office of Procurement to include post-award administration
     of SBIR contracts in training for contracting officer’s technical representatives.

     In August 2009, NASA’s Acting Inspector General testified before the Senate Committee
     on Commerce, Science, and Transportation regarding NASA’s SBIR Program.8
     Following this testimony, the OIG issued a memorandum recommending that NASA
     consider whether the SBIR Program represents a weakness in internal controls that
     warrants monitoring as part of the Agency's implementation of Office of Management
     and Budget (OMB) Circular A-123.9 The Agency concurred with the OIG
     recommendation. In October 2009, March 2010, and October 2010, the SBIR Program
     Office briefed the Agency on internal controls within the SBIR Program. According to
     Agency officials, they are monitoring the SBIR Program to determine whether internal
     controls within the Program represent a weakness that warrants corrective action.

    SBIR Program’s Contribution to NASA’s Mission

     This OIG review examined NASA’s management of its SBIR program and did not assess
     the value of the research produced under its SBIR contracts. However, in order to
     provide context for our findings, we reviewed assessments by the National Research
     Council (NRC) and the OMB regarding the effectiveness of NASA’s SBIR Program. In
     addition, we asked Mission Directorates for their assessments of whether SBIR contracts
     had contributed to NASA programs and projects.

     NRC. Congress directed the NRC to evaluate the quality of SBIR research and evaluate
     the SBIR Program’s value to the Agency’s mission. In 2009, the NRC issued “An
     Assessment of the Small Business Innovation Research Program at the National
     Aeronautics and Space Administration.” The NRC reported that the “NASA SBIR
     program is making significant progress in achieving the congressional goals for the
     program.” Additionally, the NRC reported that:




     8
         NASA OIG, “Hearing of the Senate Committee on Commerce, Science, and Transportation on the
         National Aeronautics and Space Administration’s Small Business Innovation Research (SBIR) Program.”
         Statement by Thomas J. Howard, Acting Inspector General, August 6, 2009. Available at
         http://commerce.senate.gov/public/?a=Files.Serve&File id=b9d8b888-8bb8-4d0a-8d79-d55ad95a4978
         (last accessed January 5, 2011).
     9
         NASA OIG, “NASA’s Small Business Innovation Research (SBIR) Program” (Report No. IG-09-023,
         August 13, 2009). Available at http://oig nasa.gov/audits/reports/FY09/IG-09-023.pdf (last accessed
         January 5, 2011).



4                                                                                     REPORT No. IG-11-010-R
INTRODUCTION                                             REDACTED FOR PUBLIC RELEASE



             The NASA SBIR Program helps its award recipients achieve significant levels of
              commercialization. For example, the NRC surveyed Phase 2 SBIR contractors
              and found that nearly half of NASA Phase 2 projects reached the marketplace.

             The NASA SBIR Program stimulates collaboration and technological innovation
              and generates new knowledge. For example, about 25 percent of the NRC Phase
              2 survey respondents reported filing at least one related patent, and about 20
              percent reported having received at least one patent.

             NASA’s technology transfer program has shifted since 2006 from a focus on
              commercialization (“spin-out”) to a focus on supplying mission needs (“spin-in”
              or “infusion”).

             NASA needs to improve tracking of Phase 3 awards to better evaluate the
              Program’s success.

   OMB. In 2008, OMB rated NASA’s SBIR Program as “moderately effective.”10 OMB
   concluded that the Program is promoting technology flow into and out of NASA and is
   focusing SBIR awards on projects expected to provide the greatest possible technological
   benefit to the Agency.

   NASA Mission Directorates. According to Program liaisons from NASA’s four
   Mission Directorates that participate in the SBIR Program, Directorate personnel were
   satisfied with the final products received under the Program. The liaisons also stated that
   the SBIR Program had enhanced the scope and progress of the projects within their
   Directorates and had assisted programs with meeting their overall goals. Mission
   Directorates provided the following examples of SBIR contracts that successfully
   contributed to NASA programs and projects:

             Aeronautics Research Mission Directorate. An SBIR contractor developed
              technology leading to the design of a “real-time” monitoring system for control of
              dynamic aero-loads of aircraft structures.

             Exploration Systems Mission Directorate. An SBIR contractor provided NASA
              with expert engineering analysis and evaluation of aerospace vehicles and systems
              design.

             Science Mission Directorate. An SBIR contractor developed more reliable,
              powerful, and agile electrical sources that will allow scientists to study the
              chemistry and dynamics of the Earth’s atmosphere, molecular clouds in star-
              forming regions of the universe, and the atmospheres of other planets.

   10
        OMB documented NASA’s rating using its Program Assessment Rating Tool. OMB uses the tool to
        evaluate a program’s purpose, design, planning, management, and results, and to assess a program’s
        overall effectiveness.



REPORT No. IG-11-010-R                                                                                       5
    REDACTED FOR PUBLIC RELEASE                                                                      INTRODUCTION



               Space Operations Mission Directorate. An SBIR contractor developed and
                commercialized a processor that enables high-resolution imaging of launch
                gantries from a distance.11

Objectives

    Our overall objective was to determine whether NASA effectively managed its SBIR
    Program. To accomplish this objective, we examined whether NASA had:

               established internal controls to ensure that evaluations of technical proposals are
                merit-based and objective;

               established adequate criteria and procedures for selecting SBIR awards based on
                best value;

               performed adequate due diligence to identify unallowable and unsupported costs
                by SBIR recipients; and

               established internal controls to prevent and detect fraud and abuse in the SBIR
                Program.




    11
         A launch gantry is a movable structure with platforms at different levels used for erecting and servicing
         rockets before launching.



6                                                                                         REPORT No. IG-11-010-R
JANUARY 12, 2011                                          REDACTED FOR PUBLIC RELEASE




                                                                SBIR PROGRAM OFFICIALS
                                                                 APPROPRIATELY MANAGED
                                                                       EVALUATIONS AND
                                                                          SELECTIONS OF
                                                                   TECHNICAL PROPOSALS

              We found that NASA followed detailed criteria for selecting SBIR award recipients
              and its decision-making process appeared objective and merit-based.

Program Officials Established Policy to Select Proposals that
  Stimulate Innovation

   As required by the Small Business Innovation Development Act of 1982, NASA
   established an SBIR policy that considers, among other criteria, whether proposals for
   Phase 1 and Phase 2 awards will stimulate innovation. To identify proposals that are both
   innovative and viable, the policy uses four scoring factors: (1) scientific and technical
   merit and feasibility; (2) experience, qualifications, and facilities; (3) effectiveness of the
   proposed work plan; and (4) commercial potential and feasibility.12 Evaluators calculate
   a technical merit score for each proposal by assigning numerical values to the first three
   scoring factors (scoring factor 1, 50 percent; scoring factor 2, 25 percent; and scoring
   factor 3, 25 percent) and a subjective rating (excellent, very good, average, below
   average, and poor) to factor 4.

   NASA’s policy includes procedures to ensure that evaluations of proposals are objective,
   assigning two evaluators with technical knowledge in the topic area to evaluate each
   proposal. The evaluators document their findings on standardized forms that the SBIR
   Program electronically maintains in the Electronic Handbook.13 If there is a 15-point or
   greater difference in the initial evaluators’ scores, a third evaluator is assigned to review
   the proposal. Managers review and average the evaluator’s ratings and assign a final
   score to the proposal.

   In addition to the evaluation process described above, proposals are also reviewed by
   Mission Directorate personnel who rate the proposal based on innovation and potential
   benefit to their specific Directorate and to NASA. Recommendations from the Mission
   Directorates are considered along with the overall score from the evaluators by the
   Source Selection Official, who makes the final selection decision. For 2008 awards, the


   12
        Officials included criteria for evaluating Phase 1 proposals in the 2008 Phase 1 “Proposal Evaluation
        Guidelines,” September 2008. Criteria for evaluating Phase 2 proposals were included in the 2007 Phase
        2 “Proposal Evaluation Guidelines,” July 2008.
   13
        The Electronic Handbook is the primary data collection, processing, and reporting tool for the SBIR
        program and is used to develop the topic and subtopic descriptions and for evaluating and ranking the
        proposal.



REPORT NO. IG-11-010-R                                                                                           7
    REDACTED FOR PUBLIC RELEASE                                                         RESULTS

    Source Selection Official considered only proposals that had an overall score of 85 or
    higher and had been recommended by a Mission Directorate.

    For program year 2008, NASA received 1,662 SBIR proposals and selected 493 for
    award, with a total value of $120.4 million. We randomly selected nine Phase 1 and
    eight Phase 2 proposals for review to determine whether NASA evaluators followed the
    procedures outlined in NASA policy. We found that evaluators in almost all of the cases
    followed the procedures outlined in the policy. For example, evaluators assessed each of
    the four scoring factors and documented scoring factors and scores on the standardized
    technical evaluation forms. In addition, we found that managers assigned a third
    evaluator when there was at least a 15-point difference in the scores assigned by the
    initial evaluators.




8                                                                       REPORT No. IG-11-010-R
RESULTS                                         REDACTED FOR PUBLIC RELEASE



                                             NASA NEEDS BETTER CONTROLS
                                                 TO PREVENT UNALLOWABLE
                                                AND UNSUPPORTABLE COSTS

          NASA awarded SBIR contracts in 2008 that contained an estimated $2.7 million in
          unallowable and unsupported costs such as travel and equipment. We found that this
          occurred primarily because NASA contracting officers and technical evaluators did
          not perform adequate due diligence when reviewing costs proposed by SBIR
          awardees.

Federal Acquisition Regulation (FAR) and NASA Requirements for
  the Allowability of Costs

   FAR 31.201-2, “Determining allowability,” provides that a cost is allowable only when it
   is reasonable, allocable, and complies with the terms of the contract. A cost is reasonable
   if it does not exceed the amount that a prudent person would pay under similar
   circumstances in the conduct of competitive business. A cost is allocable to an SBIR
   award if the cost provided benefits or bears an equitable relationship to the award. A cost
   complies with the terms of the contract if it is consistent with the requirements and
   express prohibitions established in the contract.

   FAR 1.602, “Contracting officers,” provides that “no contract shall be entered into unless
   the contracting officer ensures that all requirements of law, executive orders, regulations,
   and all other applicable procedures . . . have been met.” To ensure compliance with
   acquisition regulations, contracting officers must review proposed costs for allowability.

  The 2008 NASA SBIR Solicitation established the Agency’s policy regarding the
  allowability of individual cost elements proposed in SBIR program year 2008.
  Solicitation sections 3.2, “Phase 1 Proposal Requirements,” and 3.3, “Phase 2 Proposal
  Requirements,” established specific prohibitions on travel and equipment costs.

NASA Awarded Contracts with Unallowable and Unsupported
 Costs

   Approximately one quarter of the SBIR contracts NASA awarded in 2008 contained
   unallowable and unsupported costs. We reviewed a random sample of 67 SBIR contracts
   and found that 17 (25 percent) included unallowable or unsupported costs. Specifically,
   based on our review of the sampled contracts, the Agency awarded:
         unallowable travel costs;
         unallowable equipment costs;
         unallocable costs; and
         unsupported costs.


REPORT No. IG-11-010-R                                                                            9
     REDACTED FOR PUBLIC RELEASE                                                                  RESULTS

     Projecting these findings from the 67 sampled awards onto the universe of the Agency’s
     493 SBIR program awards, we estimate that NASA awarded contracts with $2.7 million
     in unallowable and unsupported costs in 2008. Because the indirect costs and profit
     associated with each contract are calculated based on direct costs, the inclusion of
     unallowable direct costs caused indirect costs and profits to be overstated for many of
     these awards. Accordingly, our calculation accounts for these overstated indirect costs
     and profits as well.

     Unallowable Travel Costs. NASA awarded contracts with unallowable travel costs
     totaling $9,255 on 4 of the 36 (11.1 percent) Phase 1 awards we reviewed. Those costs
     were unallowable under NASA policy because the 2008 SBIR solicitation established the
     following prohibition on Phase 1 travel costs:
               The NASA SBIR/STTR [Small Business Technology Transfer] program does
               not require or expect to incur travel expenses during the performance of a Phase
               1 contract. For this reason, travel expenses should not be included in the
               proposed budget for a Phase 1 proposal [emphasis added]. If the Technical
               Monitor and Contracting Officer determine that travel is necessary, the budget
               can be altered during contract negotiations to allow for this.

     Two examples of unallowable travel costs in our sample are as follows:

           A Phase 1 award included unallowable travel costs of $585 as a line item within
            the “Other Direct Costs” section of the budget summary as well as travel costs of
            $3,000 as part of a $33,000 subcontract. During the budget review for this award,
            one of the two technical evaluators noted that “[t]ravel expenses are included in
            the company budget and in the subcontract budget, which is not allowed by SBIR
            policy.” However, the contract file contained no evidence that the contracting
            officer considered the technical evaluator’s comment or corresponded with the
            Technical Monitor to determine whether travel was necessary before awarding the
            total proposed travel costs of $3,585.

               $3,585 unallowable travel costs + $1,524 applicable indirect costs and profit
                                     = $5,109 total questioned costs

           A Phase 1 award included unallowable travel costs of $1,496 as part of a $30,000
            subcontract. During the budget review for this award, neither of the technical
            evaluators commented in their technical evaluation forms about whether the
            subcontractor’s travel costs were necessary to accomplish the technical objectives
            of the award. In addition, the contract file contained no evidence that the
            contracting officer corresponded with the Technical Monitor to determine
            whether the subcontractor’s proposed travel was necessary.

                $1,496 unallowable travel costs + $150 applicable indirect costs and profit
                                     = $1,646 total questioned costs

     Management’s Comments and OIG Evaluation of Those Comments. In written
     comments to the draft of this report, the Chief Technologist asserted that all of the travel



10                                                                                  REPORT No. IG-11-010-R
RESULTS                                                    REDACTED FOR PUBLIC RELEASE

   costs we questioned were justified as exceptions to the general rule prohibiting Phase 1
   travel because the technical evaluators had concluded that the proposed travel costs were
   appropriate in these particular instances. As evidence that the technical evaluators had
   reached this conclusion, the Chief Technologist pointed to the evaluators’ affirmative
   responses to the question in the technical evaluation forms of whether “individual
   elements of the proposed budget appear to be appropriate?”

   We disagree with the conclusion that the technical evaluators considered and approved
   travel costs in each of these cases based solely on an affirmative response to this general
   question. Under the applicable rules, travel costs were prohibited unless the technical
   monitor and the contracting officer determined they were necessary for a particular SBIR
   award. Yet, with one exception where the technical evaluator specifically objected to
   proposed travel costs as unallowable but the contracting officer nevertheless awarded
   them, there was no evidence in the files we reviewed that the evaluators actually
   reviewed proposed travel costs and made an affirmative determination that they were
   necessary. Moreover, without such evidence we cannot conclude that the contracting
   officer reviewed and made a determination regarding the necessity of these costs.

   Unallowable Equipment Costs. NASA awarded contracts with unallowable equipment
   costs totaling $234,354 on 6 of the 67 awards (8.9 percent) we reviewed. These costs
   were unallowable under NASA policy because the 2008 SBIR solicitation established the
   following prohibition on equipment costs:
                  NASA will not fund the purchase of equipment, instrumentation, or facilities
                  under SBIR/STTR contracts as a direct cost . . ..

   Examples of unallowable equipment costs in our sample included the following:

              A Phase 1 award included unallowable “Equipment installation” costs of $12,986
               as a line item under Other Direct Costs. During the budget review for this award,
               a technical evaluator commented that, “Offeror currently lacks the equipment to
               produce micro-sized particles . . . . However, this equipment will be identified
               and procured under this contract.” Despite the technical evaluator’s comment, the
               contractor’s proposal did not request funds to acquire equipment or identify the
               equipment that was to be installed. Moreover, generally accepted accounting
               principles prescribe that installation costs be capitalized as part of the total cost of
               an equipment item. Therefore, the installation costs should have been treated as
               equipment and disallowed as a direct charge.

                $12,986 unallowable installation costs + $0 applicable indirect costs and profit14
                                      = $12,986 total questioned costs

              A Phase 2 award included unallowable equipment costs of $43,000 as a line item
               under Other Direct Costs. During the budget review, none of the three technical
               evaluators commented on the proposed equipment costs and the contract file
   14
        The contractor did not include indirect costs associated with the questioned equipment installation costs
        and similarly did not include a profit percentage in their SBIR Phase 1 proposal.



REPORT No. IG-11-010-R                                                                                              11
     REDACTED FOR PUBLIC RELEASE                                                           RESULTS

            contained no information identifying the equipment that was to be acquired.
            Regardless of whether the equipment was properly identified and supported, the
            contracting officer should not have allowed it as a direct charge.

         $43,000 unallowable equipment costs + $13,618 applicable indirect costs and profit
                                 = $56,618 total questioned costs

     Management’s Comments and OIG Evaluation of Those Comments. In written
     comments to the draft of this report, the Chief Technologist asserted that all of the
     questioned equipment costs were allowable because (1) “[T]echnical evaluators did not
     object to proposed equipment costs as unnecessary or inappropriate” and (2) “the
     authority to allow equipment purchases . . . was within the discretion of the Contracting
     Officer.” However, we believe NASA’s policy for 2008 SBIR awards unambiguously
     prohibited all equipment purchases as direct costs. In addition, the Chief Technologist
     acknowledged that the NASA 2008 Solicitation may not have accurately reflected the
     Agency’s intent regarding the allowability of equipment costs.

     The Chief Technologist also stated that the $12,986 equipment installation cost identified
     above was deleted by the contractor in a January 15, 2009, revised proposal and therefore
     was not included in the final award. We disagree. The contract file we obtained from
     NASA does not include this revised proposal. Moreover, the file includes a “Price
     Memorandum” containing the stamped signature of the contracting officer that identifies
     the $12,986 equipment installation charge. This memorandum is the contractor officer’s
     support for the amount awarded in the contract signed on January 22, 2009. In addition,
     the Chief Technologist asserted that, in another contract in which we questioned costs,
     computer service charges totaling $1,096 should not be considered an equipment
     purchase. However, the contractor’s cost proposal described these charges as including
     “the support and acquisition of our corporate computer equipment and software . . ..”

     Unallocable Costs. NASA awarded $167,014 in unallocable direct costs on 7 of the 67
     awards (10.4 percent) we reviewed. FAR 31.201-4, “Determining Allocability,” states
     that a cost is allocable if it is assignable or chargeable to one or more cost objectives on
     the basis of relative benefits received or other equitable relationship. Accordingly,
     allocable SBIR costs are those that are incurred solely to advance the work for which the
     SBIR contract is awarded. In contrast, costs that benefit work performed both on a
     NASA SBIR contract and other Government contracts should be included in an indirect
     cost pool and allocated to all benefiting contracts through an indirect cost rate. Examples
     of costs typically included in an indirect cost pool are corporate officers’ salaries,
     administrative wages, recruiting and hiring, public relations, professional development,
     office supplies, rent, utilities, taxes, and depreciation.

     Examples of unallocable costs in our sample included the following:

           A Phase 1 award included unallocable Other Direct Costs of $9,370. The direct
            costs included rent and utilities, Internet access, cell phones, accounting and tax
            services, public relations, office supplies, and licenses. These costs should have



12                                                                         REPORT No. IG-11-010-R
RESULTS                                           REDACTED FOR PUBLIC RELEASE

          been included in the contractor’s indirect cost pool and recovered through an
          indirect cost rate.

                  $9,370 unallocable costs + $960 applicable indirect costs and profit
                                   = $10,330 total questioned costs

         A Phase 2 award included unallocable overhead costs of $89,032. The
          unallocable costs resulted from the contractor misclassifying subcontracted labor
          costs of $296,774 as direct labor and then applying the prime contractor’s
          overhead rate to all direct labor. In effect, the prime contractor’s overhead rate
          was applied to subcontracted labor.

                  $89,032 unallocable costs + $891 applicable indirect costs and profit
                                   = $89,923 total questioned costs

   Management’s Comments and OIG Evaluation of Those Comments. In written
   comments to the draft of this report, the Chief Technologist disagreed that unallocable
   costs necessarily result in overstated total costs. He stated that the only way to definitely
   determine whether total costs are overstated is to request that the Defense Contract Audit
   Agency perform field pricing audits. He further stated that it is impractical for
   contracting officers to request these types of audits during the normal business cycle of
   reviewing and awarding SBIRs.

   We disagree that field pricing audits are needed to identify contractors’ inappropriate
   accounting practices. Rather, we believe NASA contracting officers should exercise a
   higher degree of professional skepticism when reviewing proposed costs. When
   contracting officers identify direct costs that are typically included in indirect cost pools,
   they should notify the offerors that the costs are unallowable as direct charges unless the
   offeror can provide adequate documentation to justify an alternative accounting
   treatment.

   Unsupported Costs. The FAR and the 2008 SBIR Solicitation provide that contracting
   officers should not enter into contracts if proposed costs are inadequately supported.
   Specifically, the 2008 SBIR solicitation required that proposals include budget
   information “to explain the offeror’s plans for use of the requested funds to enable NASA
   to determine whether the proposed budget is fair and reasonable.” However, we found
   that NASA awarded unsupported costs totaling $117,932 on 2 of the 67 awards (3
   percent) we reviewed.

         The budget proposal for a Phase 2 award included $85,000 for “Special Testing”
          as a line item under Other Direct Costs and provided a cost breakdown to support
          the line item. However, the contractor’s cost breakdown totaled only $62,000 and
          left the remaining $23,000 undefined and unsupported. NASA contracting
          personnel corresponded with the contractor to inquire about the unsupported
          costs. The contractor explained that the funds were intended for “solar wind
          exposure” testing, but it was uncertain whether the testing would be needed.
          Further, the contractor described a high level of uncertainty about where testing


REPORT No. IG-11-010-R                                                                              13
     REDACTED FOR PUBLIC RELEASE                                                          RESULTS

            would be performed. The contractor then offered to eliminate the costs from their
            proposal. Despite these uncertainties, the contracting officer awarded the
            proposed costs in-full.

                 $23,000 unsupported costs + $19,182 applicable indirect costs and profit
                                   = $42,182 total questioned costs

           The budget proposal for a Phase 2 award included $75,000 of materials as a line
            item under Other Direct Costs. The contractor’s explanatory footnote stated,
            “Other Direct Cost will predominantly represent materials such as polymers,
            electronic [sic], sensors, electrodes, chemicals, fabrication costs, and lab
            supplies.” We concluded that this explanatory footnote did not provide sufficient
            information to allow NASA to determine that the budgeted amount, which
            equaled 12.6 percent of the total award, was fair and reasonable.

                  $75,000 unsupported costs + $750 applicable indirect costs and profit
                                   = $75,750 total questioned costs

     Management’s Comments. In written comments to the draft of this report, the Chief
     Technologist disagreed that $42,181 for “Special Testing” in the Phase 2 award described
     above was unsupported. We stand by our finding as previously described. In the other
     Phase 2 award described above, NASA management agreed that the $75,000 for
     materials “should have been more adequately supported by the contractor.”

Contracting Officers Did Not Adequately Review Proposed Costs

     NASA awarded contracts with unallowable and unsupported costs because contracting
     officers and technical evaluators did not consistently exercise adequate due diligence
     when reviewing proposed costs. Due diligence refers to the care that a reasonable person
     should take before entering into a contract on behalf of the Government. Adequate due
     diligence requires contracting officers to obtain and evaluate a sufficient amount of
     appropriate evidence to provide a reasonable basis for assessing the allowability of costs
     and to take appropriate action when they identify unallowable and/or unsupported costs.
     Similarly, adequate due diligence requires technical evaluators to review proposed costs
     and make a preliminary assessment of allowability and to properly document their review
     and make appropriate comments for consideration by the contracting officer.

     Contracting Officers’ Inadequate Due Diligence. Contracting officers did not
     consistently exercise adequate due diligence in that they did not consistently:

           give adequate consideration to technical evaluators’ comments about proposed
            costs;

           correspond with technical monitors to determine whether Phase 1 travel costs
            were necessary;




14                                                                       REPORT No. IG-11-010-R
RESULTS                                          REDACTED FOR PUBLIC RELEASE

         notify offerors that equipment costs and unallocable costs were unallowable as
          direct charges; or

         correspond with offerors to request additional information about unsupported
          costs.

   Technical Evaluators’ Inadequate Due Diligence. Technical evaluators did not
   consistently exercise adequate due diligence in that they did not always make appropriate
   comments in the technical evaluation forms about unallowable and/or unsupported costs.
   In addition, when evaluators noted unallowable or unsupported costs, they sometimes
   incorrectly answered “Yes” in the technical evaluation forms to the question of whether
   “individual elements of the proposed budget appear to be appropriate?”

   Technical evaluators should be able to complete the evaluation forms properly and
   understand basic cost principles regarding allowability and any prohibitions on specific
   cost categories.

Conclusion

   We projected the results of our review of 67 sampled SBIR awards onto the universe of
   493 program year 2008 awards. We estimate that NASA awarded contracts with
   $2.7 million in unallowable and unsupported costs in 2008. More specifically, we
   estimate that NASA awarded contracts with:
         unallowable travel costs of $89,979;
         unallowable equipment costs of $1,159,140;
         unallocable costs of $870,852; and
         unsupported costs of $544,007.

   Based on these findings, we believe the Agency should improve its cost review
   procedures by:

         ensuring that during the selection and evaluation stage technical evaluators
          adequately review proposed costs, perform a preliminary assessment of
          allowability, and make appropriate comments in the technical evaluation forms
          about any unallowable and/or unsupported costs, and

         ensuring that in the contract award stage contracting officers give due
          consideration to technical evaluators’ comments about proposed costs and take
          appropriate action when they identify unallowable and/or unsupported costs.

   We estimated that NASA could put $13.3 million in SBIR funds to better use during
   program years 2010 through 2014 if it takes steps to ensure that unallowable and




REPORT No. IG-11-010-R                                                                         15
     REDACTED FOR PUBLIC RELEASE                                                                          RESULTS

     unsupported costs are excluded from SBIR awards. We calculated this figure by
     projecting the results of our program year 2008 sample to future years.15

     Details about questioned costs in our sample are in Appendix B. Details about our
     sampling methodology and projection of results are in Appendix C.

Recommendations, Management’s Response, and OIG Evaluation
of Management’s Response

Recommendation 1.       The Chief Technologist, in consultation with the Assistant
Administrator for Procurement, should provide technical evaluators with training to ensure
that they know how to perform a preliminary assessment of cost allowability and properly
complete technical evaluation forms.

            Management’s Response. The Chief Technologist concurred with the
            recommendation, stating that technical evaluators play a crucial role in assessing the
            technical capability of firms seeking SBIR awards. However, he considers the budget
            review performed by technical reviewers to be “a very preliminary assessment of the
            budget.” Nevertheless, he agreed to improve the quality of the budget review process
            by developing a training module for technical evaluators and implementing it by
            July 30, 2011.

            Evaluation of Management’s Response. The proposed action is responsive to our
            recommendation. Accordingly, the recommendation is resolved and will be closed
            upon completion and verification of the proposed corrective action.

Recommendation 2.         The Chief Technologist, in consultation with the Assistant
Administrator for Procurement, should improve cost review procedures in the selection and
evaluation stage to ensure that technical evaluators properly review proposed costs, perform
a preliminary assessment of allowability, and make appropriate comments in evaluation
forms about any unallowable and/or unsupported costs.

            Management’s Response. The Chief Technologist concurred with the
            recommendation, stating that the Agency can improve its SBIR budget review
            process by providing technical evaluators with cost review training and by modifying
            the technical evaluation form to better identify specific elements of cost. The training
            program will be developed and implemented by July 30, 2011.

            Evaluation of Management’s Response. The proposed action is responsive to our
            recommendation. Accordingly, the recommendation is resolved and will be closed
            upon completion and verification of the proposed corrective action.

Recommendation 3.        The Assistant Administrator for Procurement should improve cost
review procedures in the contract award stage to ensure that contracting officers document
that they have given due consideration to technical evaluators’ comments about proposed
     15
          Our calculation assumed that SBIR funding levels would remain constant over the 5-year period of our
          projection.



16                                                                                     REPORT No. IG-11-010-R
RESULTS                                       REDACTED FOR PUBLIC RELEASE

costs and have taken appropriate action when unallowable and/or unsupported costs are
identified.

      Management’s Response. The Chief Technologist disagreed with our finding that
      contracting officers did not consistently exercise adequate due diligence when
      reviewing proposed costs. Nevertheless, he agreed to review and revise existing price
      negotiation memorandum templates, checklists, and associated file documentation for
      SBIRs by February 28, 2011, to ensure that negotiated costs are adequately analyzed,
      supported, dispositioned, and documented. In addition, NASA agreed to provide
      contracting personnel with additional training on the analysis of direct and indirect
      costs.

      Evaluation of Management’s Response. The proposed action is responsive to our
      recommendation. Accordingly, the recommendation is resolved and will be closed
      upon completion and verification of the proposed corrective action.




REPORT No. IG-11-010-R                                                                        17
     REDACTED FOR PUBLIC RELEASE                                                                        RESULTS



                                                               NASA NEEDS TO CONSIDER
                                                               PAST PERFORMANCE WHEN
                                                                     CONSIDERING SBIR
                                                                            PROPOSALS

                FAR requires agencies to use past performance information in competitive awards of
                more than $100,000 to ensure the selected proposal represents the best value to the
                Government.16 According to the Office of Federal Procurement Policy, “the use of
                past performance as a major evaluation factor in the contract award process is
                instrumental in making best value selection.” However, we found that SBIR
                Program management had not developed policies to collect or consider past
                performance information in Phase 2 contract selections and, as a result, past
                performance information was not used in evaluating any of the 31 Phase 2 contracts
                we randomly sampled even though all of these awards exceeded the $100,000
                threshold.

FAR Requires that Performance Information Be Used to Help
  Identify Best Value for the Government

     FAR 2.1, “Definitions,” defines best value as the acquisition that is expected to provide
     the greatest overall benefit to the Government. All Federal acquisitions must be selected
     based on best value. The FAR explains that technical and past performance
     considerations may play a dominant role in award selections when requirements are less
     defined, more development work is needed, or performance risk is greater, such as with
     Phase 2 SBIR awards.

     FAR Subpart 15.3, “Source Selection,” requires agencies to use past performance
     information as an evaluation factor in selecting negotiated competitive awards of more
     than $100,000, along with price, management capability, and technical excellence. FAR
     defines past performance information as the contractor’s (1) record of meeting contract
     requirements and standards of good workmanship, (2) record of forecasting and
     controlling costs, (3) conformance to contract schedules, and (4) history of customer
     satisfaction. In “Best Practices for Collecting and Using Current & Past Performance
     Information,” the Office of Federal Procurement Policy states that the use of past
     performance as a major evaluation factor in the contract award process is instrumental in
     making best value selections. The guidance stated that “. . . assessing past performance
     information enables agencies to better predict the quality of, and customer satisfaction
     with future work” and to achieve their program mission.




     16
          Phase 1 contracts are valued at a maximum value of $100,000. Therefore, NASA is not required to use
          past performance information in evaluating Phase 1 SBIR proposals.



18                                                                                    REPORT No. IG-11-010-R
RESULTS                                                      REDACTED FOR PUBLIC RELEASE


NASA Infrequently Considered Past Performance in Evaluating
 Phase 2 Proposals

   During our review of 31 Phase 2 awards, we found that 84 percent of Phase 2 proposal
   evaluations did not include past performance information. For example, only 5 (16
   percent) of the 31 Phase 2 awards we sampled contained past performance assessments
   and 1 of the 5 contained an unsatisfactory assessment but still received an SBIR award.
   Past performance information was not part of the scoring factors or the scoring
   methodology for the SBIR program’s evaluation of Phase 2 technical proposals.17

   The Program’s Source Selection Official and the SBIR Program Manager stated that
   current proposal evaluation procedures meet FAR requirements because evaluation factor
   1 considers past performance information from prior NASA SBIR awards. Proposal
   evaluation factor 1 states:
               The proposed R/R&D [research/research and development] effort will be evaluated on its
               innovativeness, originality, and potential technical value, including the degree to which
               Phase 1 objectives were met, the feasibility of the innovation, and whether the Phase 1
               results indicate a Phase 2 project is appropriate.

   In our opinion, factor 1 does not fully meet the requirements of FAR. Although factor 1
   identifies the technical requirements for prior Phase 1 contracts, it does not consider
   information about contractors’ past performance as required by FAR Subpart 42.15.
   Specifically, factor 1 does not provide information about a contractors’ record of good
   workmanship, record of forecasting and controlling costs, conformance to contract
   schedules, and history of customer satisfaction on all prior contracts beyond SBIR.

Deficient Controls Prevented Program from Using Past
  Performance in Award Selections

   The NASA SBIR Program lacks evaluation and selection policies for collecting past
   performance information on firms that compete for Phase 2 awards and for using the
   information in Phase 2 award selections. For example, the Program does not give
   adequate consideration to information about contractors’ past performance as required by
   FAR. Specifically, the SBIR Program failed to include the following policies required by
   FAR 15.3:
              Require the annual solicitation to outline the performance assessment
               methodology or to describe procedures for firms to provide past performance
               information.
              Incorporate past performance information in scoring factors and the final scores
               for Phase 2 proposals.


   17
        Proposals are scored using a quantitative and qualitative scoring methodology. The methodology uses
        four evaluation factors: (1) scientific/technical merit and feasibility; (2) experience, qualifications, and
        facilities; (3) effectiveness of the proposed work plan; and (4) commercial potential and feasibility.



REPORT No. IG-11-010-R                                                                                                 19
     REDACTED FOR PUBLIC RELEASE                                                         RESULTS

           Require technical officers to assess past performance on Phase 2 awards or
            document the past performance assessment score.

     Without considering past performance, the SBIR Program cannot provide assurance that
     Phase 2 SBIR contract selections were in the best interest of the Government. Failing to
     consider past performance information increases the risk that NASA will select poorly
     performing firms. To reduce that risk, the FAR requires that agencies use past
     performance information in selecting negotiated competitive awards.


Recommendations, Management’s Response, and OIG Evaluation
of Management’s Response

Recommendation 4.        The Chief Technologist should require consideration of a
contractors’ past performance before awarding an SBIR contract, in compliance with the
FAR. These policies and procedures should:

        a. require that the annual solicitation for SBIR proposals outline the performance
           assessment methodology;

        b. designate responsibility for collecting past performance information;

        c. include past performance information in the scoring methodology and scores for
           Phase 2 proposals; and

        d. require technical officers to assess a firm’s past performance on Phase 2 awards
           and to document the assessment.

        Management’s Response. The Chief Technologist concurred with recommendations
        4 a, b, and, d and partially concurred with recommendation 4c. Additional comments
        on the recommendation’s subparts follows:

        4a. The Chief Technologist stated that past performance is an important factor in
            NASA’s selection process and that NASA modified its selection criteria in the
            2010 SBIR solicitation to provide that “Each proposal selected for negotiation
            will be evaluated for cost/price reasonableness, past performance and award will
            be made to those contractors determined to be responsible. The past performance
            evaluation will consider the contractor’s past performance under the Phase 1
            effort.”

            Regarding corrective action, the Chief Technologist stated that the Program will
            review language based upon audit recommendations and additional revisions will
            be incorporated in the 2011 solicitation.

        4b. The Chief Technologist stated that contracting officers are responsible for
            collecting past performance information and that they collect past performance
            information from the NASA Acquisition Internet Service and place a copy of the
            results in the file.


20                                                                       REPORT No. IG-11-010-R
RESULTS                                         REDACTED FOR PUBLIC RELEASE

          Regarding corrective action, the Chief Technologist stated that the action was
          complete.

      4c. The Chief Technologist stated that prior to selection for negotiation, technical
          evaluators review and evaluate performance of the firm during the Phase I
          performance period as part of the Phase II evaluation, which NASA considers a
          valuable indicator of the potential Phase II performance. After firms are reviewed
          and selected for negotiation, contracting officers query the NASA Acquisition
          Internet Service database to review past performance history.

          Regarding corrective action, the Chief Technologist stated that management plans
          to initiate the collection of past performance information on both Phase I and
          Phase II contracts and make past performance information available to reviewers
          during the review process. In addition, management will evaluate the feasibility
          of conducting the preliminary review of the Past Performance Database, Excluded
          Parties List System, and Central Contractor Registration before making a formal
          notice of selection for negotiation to the public, rather than during the negotiation
          process as is current practice. Management expects to complete the proposed
          actions by July 2011.

      4d. The Chief Technologist stated that the collection of past performance information
          is an important element of contract administration, and that NASA requires
          contracting officer technical representatives to perform a past performance
          assessment at the completion of the SBIR contract. This evaluation is done
          through the NASA Past Performance Database system.

          Regarding corrective action, the Chief Technologist stated that beginning with
          2008 Phase 1 contracts, contracting officer technical representatives have been
          required to file past performance evaluation forms for Phase 1 and Phase 2
          contracts.

      In subsequent discussions, Program officials stated that management partially
      concurred on recommendation 4.c because of difficulties making past performance
      information available for use in the final selection of SBIR awards. Officials
      explained that to implement recommendation 4.c fully, the Program Office and Office
      of Procurement are working out security and access issues related to the Past
      Performance Database maintained by the Office of Procurement. Officials stated that
      the Program Office and Office of Procurement have tentatively decided to make
      information from the Past Performance Database available to the Source Selection
      Official who will review information in the database and determine whether the
      Agency will consider a contractor with negative past performance information for an
      SBIR contract.

      Evaluation of Management’s Response. Management’s planned actions are
      responsive to our recommendation. We consider the recommendation resolved and
      will close it upon completion and verification of management’s corrective action.




REPORT No. IG-11-010-R                                                                            21
     REDACTED FOR PUBLIC RELEASE                                                                RESULTS



                                                         NASA NEEDS TO IMPROVE ITS
                                                            ABILITY TO PREVENT AND
                                                               DETECT FRAUD IN THE
                                                                    SBIR PROGRAM

                SBIR Program managers are responsible for establishing controls that prevent and
                detect fraud and abuse. As part of this review, we identified 24 controls that could
                help prevent or detect fraud and abuse and found that more than half have not been
                implemented by NASA. For example, NASA requires contractors to certify that the
                proposed research was not previously funded by another agency, to provide a list of
                its federally funded awards, and to certify that the firm meets SBA eligibility criteria.
                However, NASA does not require contractors to identify personnel who worked on
                SBIR research, describe the role of contract personnel in their proposed research, or
                itemize costs on contract invoices. Consequently, NASA’s SBIR Program remains
                vulnerable to fraud and abuse involving duplicate awards, duplicate deliverables,
                violations of SBA requirements, significant differences between actual and proposed
                costs, and misuse of SBIR funds.

Types of Fraud and Abuse Found in SBIR Programs

     Fraud is a type of illegal act that involves obtaining something of value through willful
     misrepresentation. Abuse involves behavior that is deficient or improper when compared
     with behavior that a prudent person would consider a reasonable and necessary business
     practice given the facts and circumstances.18 We reviewed SBIR-related investigations at
     NASA and other agencies dating back to 1997 and identified 6 categories of fraud and
     abuse that are prevalent in SBIR programs Government-wide:

            1. Firms or principal investigators received duplicate awards for the same
               research. Firms or principal investigators submitted research proposals to NASA
               for research that had previously been funded by another agency.

            2. Contractors submitted duplicate deliverables or questionable research
               products. Contractors submitted duplicate deliverables to multiple agencies,
               false research data, or plagiarized deliverables.

            3. Firms and principal investigators violated SBA eligibility criteria. Principal
               investigators were not primarily employed by the contractor or did not perform a
               substantial portion of the research work. In addition, firms falsely certified that
               they (1) were American-owned; (2) had performed the research in-house; (3) met
               subcontracting restrictions; or (4) met requirements for being classified as a small
               business or woman-owned entity. Investigations also uncovered firms that
               provided nonexistent addresses for their place of business.

     18
          Government Accountability Office “Performance Audit Tool.”



22                                                                             REPORT No. IG-11-010-R
RESULTS                                                 REDACTED FOR PUBLIC RELEASE

          4. Actual effort and costs differed materially from what was negotiated. Firms
             used a different principal investigator than the investigator identified in the
             proposal, did not provide current or accurate labor rates in the cost proposal, or
             performed research that was materially inferior to the research described in the
             proposal. Investigations also found firms that had materially lower costs (e.g.,
             labor or equipment) during contract performance than stated in their cost
             proposals.

          5. Contractors misused SBIR funds. Firms willfully diverted, concealed, or
             illegally used SBIR funds. For example, firms applied cost overruns on SBIR
             fixed-priced contracts to a NASA cost-plus contract, diverted SBIR funds to non-
             contract activities, charged cost overruns on SBIR contracts to research and
             development or other indirect accounts, or used SBIR funds to support
             commercial work. In addition, investigations found firms that charged
             unallowable costs such as nonexistent employees to SBIR contracts or
             overcharged labor hours. In one investigation, the firm owner diverted SBIR
             funds to the owner’s personal use by billing individuals not employed by the
             business to the SBIR contract and submitting falsified research reports to the
             funding agency.

          6. Technical personnel were involved in procurement integrity issues. Technical
             evaluators had conflicts of interest with the proposing entity or disclosed
             proprietary information to an unauthorized party.

Management Is Responsible for Internal Controls

   According to the Federal Managers’ Financial Integrity Act (FMFIA) of 1982 and OMB
   Circular A-123, “Management’s Responsibility for Internal Control,” December 21,
   2004, management is responsible for developing effective internal controls. Internal
   controls includes the plans, methods, and procedures that management uses to meet
   missions, goals, and objectives. Effective internal controls provide reasonable assurance
   that operations are effective, financial reports are reliable, the organization complies with
   laws and regulations, and the organization safeguards assets.

   FMFIA and Circular A-123 require managers to meet standards established by the
   Government Accountability Office (GAO). Circular A-123 and GAO’s “Standards for
   Internal Control in the Federal Government” (Standards) describe the methodology
   management can use for evaluation of its internal controls.19 First, management
   identifies specific risks that could jeopardize financial reports, assets, and compliance
   with laws and regulations. The identification should be comprehensive and include both
   external and internal risks. Second, management completes a risk analysis and control
   assessment. For each risk, management estimates the impact from the risk, identifies
   controls that prevent or manage the risk, determines whether controls are in place or
   missing, and decides whether additional controls are needed.

   19
        GAO, “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).



REPORT No. IG-11-010-R                                                                                         23
     REDACTED FOR PUBLIC RELEASE                                                                      RESULTS


Actions by SBIR Program Office to Strengthen Internal Controls

     SBIR Program officials developed a paperless web-based system, the Electronic
     Handbook, to document transactions for all stages of the SBIR process. The Handbook
     contains documentation of solicitation development and dissemination, proposal
     evaluations and selections, contract negotiations and awards, post-award administration,
     and contract close out. The Electronic Handbook also contains program points of
     contact, policy directives and guidelines, and SBIR Program milestones. Using the
     Handbook, Program officials can access and evaluate transactions by NASA and firm
     personnel who have a part in the SBIR process. For example, Program officials can
     determine whether NASA personnel who serve as proposers and evaluators followed
     procedures consistently and used the appropriate documentation. For example, Program
     officials can determine whether proposers and evaluators followed procedures
     consistently and used the appropriate documentation.

     In addition to the Electronic Handbook, Program officials voiced strong support for
     internal control and established an effective organizational structure that designated
     specific personnel responsible for policy, program management, evaluations, selections,
     and contract oversight. For example, Program officials implemented procedures to
     accomplish 21 of 23 program management requirements from statutes, regulations,
     policies, and guidelines. From October 2009 to March 2010, SBIR Program Officials
     briefed the NASA Senior Assessment Team on the adequacy of the Program’s controls
     and identified possible improvements. Those improvements were again presented to the
     Senior Assessment Team in October 2010 but are not fully implemented into NASA’s
     processes and procedures. (See discussion later in the report.)

SBIR Process Lacks Adequate Controls to Prevent and
  Detect Fraud and Abuse

     We analyzed SBIR fraud risks according to the methodology described in OMB’s
     Circular A-123, GAO’s Standards, and GAO’s “Auditing and Investigating the Internal
     Control of Government Purchase Card Programs” (Purchase Card Audit Guide).20 We
     identified specific points in NASA’s SBIR process where fraud or abuse were most likely
     to occur, identified procedures that would help prevent or detect the fraud or abuse, and
     determined whether NASA had implemented the procedures.

     In consultation with OIG fraud investigators, we identified 24 internal controls that we
     believe would assist NASA in preventing or detecting SBIR fraud and abuse. Of these 24
     controls, 10 (42 percent) are already part of NASA’s processes and procedures while the
     other 14 controls (58 percent) are not currently used by NASA. See Appendix D for
     descriptions of the 24 controls and their status within NASA.



     20
          GAO, “Audit Guide: Auditing and Investigating the Internal Control of Government Purchase Card
          Programs” (GAO-04-87G, November 2003).



24                                                                                   REPORT No. IG-11-010-R
RESULTS                                                   REDACTED FOR PUBLIC RELEASE

   We classified 19 of the 24 controls as critical in fraud prevention and detection.21 For
   these 19 critical controls, approximately half (10) were already part of NASA’s processes
   and procedures. For example, NASA requires firms to certify that the SBIR research
   proposal has not been funded by another Federal agency. However, NASA does not
   perform automated word searches of SBIR research proposals submitted to NASA or
   automated word searches of research proposals funded by other Federal agencies, which
   could identify duplicate funding. Both of those controls are critical to preventing
   duplicate awards for the same research. While the remaining 5 of the 24 controls (none
   of which are currently employed by NASA) would be helpful in fraud prevention and
   detection, their implementation is not critical.

   As noted above, we identified specific controls for each of the six most common
   categories of fraud and abuse we identified. Table 1 shows the number of controls we
   identified for each category and whether those controls are in place at NASA. As shown
   in the table, the only risk for which NASA had adopted the full complement of controls
   was that of technical personnel being involved in procurement integrity issues, such as
   conflicts of interests with proposing entities.

                 Table 1. Summary of NASA’s Internal Controls for Six Categories
                            of Fraud and Abuse Found in SBIR Programs
                                                                     Controls
                                                                           Not
               Category of Fraud or Abuse                Implemented Implemented                          Total
   Firms or principal investigators received duplicate
    awards for the same research.                           3              2                                 5
   Contractors submitted duplicate deliverables or
    questionable research products.                         1              1                                 2
   Firms and principal investigators violated SBA
    eligibility criteria.                                   3              1                                 4
   Actual effort and costs differed materially from what
    had been negotiated.                                    1              2                                 3
   Contractors misused SBIR funds.                          0              8                                 8
   Technical personnel are involved in procurement
    integrity issues.                                       2              0                                 2
      Totals                                               10             14                                24

   With the adoption of the additional controls we identified, NASA officials would be
   better positioned to prevent and detect fraud and abuse in the SBIR Program. For
   example:

             NASA OIG investigations identified multiple firms that attempted to defraud
              NASA and other Federal agencies by submitting duplicate research proposals or
              research reports from previous contracts. SBIR Program officials could detect

   21
        We defined a critical control as a control for which the related fraud has (1) a high probability of
        occurring, (2) a high impact to NASA should it occur, or (3) a medium to high probability of occurring, a
        medium to high impact to NASA, and a low implementation cost. See Appendix D for additional details.



REPORT No. IG-11-010-R                                                                                              25
     REDACTED FOR PUBLIC RELEASE                                                               RESULTS

                duplicate proposals or reports by performing automated word searches of
                (1) SBIR research proposals submitted to NASA, which are electronically stored
                in the Electronic Handbook; (2) research proposals funded by a NASA grant or
                contract, which are electronically stored in the General Services Administration
                (GSA) Federal Procurement Data System database22; and (3) research proposals
                funded by another Federal agency under an SBIR award, grant, or contract.
                GSA’s database contains data on Government contracts with an estimated value
                of $3,000 or more and modifications to Government contracts regardless of dollar
                value. The SBA TECH-Net database is a publically accessible database that
                contains data on SBIR and Small Business Technology Transfer awards including
                the firm’s name and address, SBIR award phase, agency granting the award,
                award amount, award year, and a synopsis of award technical proposals.

               Investigations by NASA OIG identified multiple firms that, rather than perform
                the research in-house, subcontracted the work to other firms or individuals.
                Program officials could help detect this type of abuse by performing automated
                searches of the SBA TECH-Net database to identify principal investigators that
                held more than two awards for the year and use this information to assess a firm’s
                compliance with limitations on principal investigator employment.

               Six of the 14 controls we are recommending to NASA are controls that the
                contracting officer or designee performs or that the contracting officer adds to the
                contract requirements.23 Adoption of these controls by NASA could help prevent
                or detect fraud and abuse such as violations of SBA eligibility criteria, material
                differences between actual and negotiated costs, and misuse of SBIR funds. Two
                of the controls specifically target contractors that bill NASA for nonexistent
                employees and divert SBIR funds to personal or non-contract purposes.24

               Four of the 14 controls we are recommending relate to the use of automated tools
                or electronic processes to identify potentially improper transactions.25 These four
                controls involve data mining to find patterns by comparing, for example, data in a
                group of NASA SBIR research proposals with data in a group of non-NASA
                contracts. Such a comparison could assist management in detecting duplicate
                SBIR awards, duplicate deliverables, and violations of SBIR Program rules.

Agency Did Not Develop Information that Would Have Shown
  the Need for Additional Controls

     In response to previous OIG audits and management referrals, NASA’s Office of Internal
     Controls and Management Systems completed an internal control assessment of NASA’s

     22
          See the Federal Procurement Data System – Next Generation Web site at
          https://www.fpds.gov/fpdsng cms/ (accessed January 5, 2011).
     23
          See controls, 12, 15, 16, 22, 23, and 26 in Appendix D.
     24
          See controls 19, 22, and 23 on Appendix D.
     25
          See controls 4, 5, 6, and 8 on Appendix D.



26                                                                                REPORT No. IG-11-010-R
RESULTS                                                     REDACTED FOR PUBLIC RELEASE

   SBIR policies and procedures on December 9, 2009. The assessment stated, “. . . it
   appears that the [SBIR Program Office] is taking or is planning appropriate steps to
   address the OIG’s concerns regarding program/process controls . . ..”

   A March 2010 presentation by SBIR Program management to the Senior Assessment
   Team26 described risks from duplicate awards, duplicate deliverables, and
   misrepresenting the role of the principal investigator who was to perform the research.
   The presentation stated that the SBIR Program had “very effective internal controls
   currently in place; but, could apply additional internal controls at an additional cost if
   funding were made available.” The presentation identified improvements as possible
   additional internal controls with estimated annual costs of nearly $4 million. For
   example:

              Increase SBIR Program awareness. The SBIR Program Office would increase
               awareness by including responsibilities for evaluators and technical officers in
               their annual performance plans and by issuing policy that emphasizes the
               importance of their roles in the SBIR Program.

              Train personnel on fraud awareness. The SBIR Program Office would add a
               fraud awareness module to technical officer training, establish a liaison with
               NASA’s Acquisition Integrity Program, and provide fraud awareness training to
               NASA personnel who are involved in the SBIR Program.

              Enhancements to the Electronic Handbook. Enhancements include the
               purchase of software that permits the SBIR Program Office to electronically
               compare key words and phrases in SBIR technical proposals and reports.

              Increase administrative oversight. The contracting officer would request
               Defense Contract Audit Agency (DCAA) audits for a sample of SBIR proposals.
               In addition, the SBIR Program Office would lead an internal and external effort to
               heighten fraud awareness.

              Increase support by NASA Shared Services Center. The Center would
               develop contract surveillance plans, validate contractor references, and increase
               the use of DCAA rate analysis for evaluating Phase 2 proposals. The SBIR
               Program Office would develop guidelines for virtual site visits of SBIR
               contractors, recertify firms quarterly, and develop improved checklists for
               evaluating firms and analyzing proposed costs.

              Increase Center management activities. Centers would be required to support
               program administration and ensure that technical oversight personnel follow
               contract surveillance plans.


   26
        The Senior Assessment Team provides oversight for NASA’s internal control over financial reporting.
        The Team determines the scope of the internal control assessment, determines the assessment design and
        methodology, analyzes the results of internal control testing, and reports on the results of the assessment.



REPORT No. IG-11-010-R                                                                                                 27
     REDACTED FOR PUBLIC RELEASE                                                                          RESULTS

     Generally, the controls recommended by the SBIR Program Office will strengthen the
     general control environment, which we believe is an important first step in reducing the
     Program’s vulnerability to fraud and abuse. However, the Office recommended only 4
     controls to prevent and detect specific SBIR fraud risks.27 The presentation did not
     identify specific SBIR fraud risks from all categories or analyze existing and planned
     controls against specific SBIR fraud risks. We believe such an analysis would have
     underscored the need for the additional controls.

     Internal control guidance recommends a methodology similar to that described in OMB’s
     Circular A-123 and GAO’s Standards. GAO’s Purchase Card Audit Guide recommends
     that auditors identify the specific risks of fraudulent, improper, and abusive purchases,
     identify the related control activities, and conclude whether the control activities
     adequately manage the specific risks. In addition, the Practitioners Publishing
     Company’s guide, “Internal Control and Fraud Prevention,” outlines a targeted approach
     that recommends auditors consider their organization’s vulnerability to specific fraud
     schemes and assess the controls that prevent and detect those specific schemes. For the
     24 controls we identified, we used such an analysis to classify controls as critical or
     noncritical.

     In addition, internal control guidance requires management to evaluate the cost and
     benefit of additional procedures. For the 24 controls we identified, we used estimates of
     outside purchases to assess implementation costs but lacked insight into all staff, contract
     support, and administrative costs needed to implement the controls. We believe
     management should implement the additional 9 controls we classified as critical. For the
     remaining 5 controls we identified as noncritical, as well as additional controls that the
     SBIR Program Office is considering, management should evaluate implementation costs
     and benefits to NASA and implement those controls for which benefits exceed costs.

SBIR Program Office Lacks Authority to Implement Controls

     Although NASA manages the SBIR Program through SBIR Program Office, the office
     does not have the authority to implement controls to address all risks to the SBIR
     Program. Because the contracting officer is responsible for implementing controls over
     procurement actions, the Office of Procurement must approve any internal controls
     related to procurement actions. Accordingly, the Office of Procurement and SBIR
     Program Office would have to coordinate to ensure effective implementation of control
     procedures.

     For example, we identified the following control to detect firms that attempt to charge the
     Government for nonexistent employees:




     27
          The controls are (1) electronically compare key words and phrases in SBIR technical proposals and
          reports software, (2) request DCAA audits for a sample of SBIR proposal, (3) validate contractor
          references, and (4) increase the use of DCAA rate analysis for evaluating Phase 2 proposals.



28                                                                                      REPORT No. IG-11-010-R
RESULTS                                       REDACTED FOR PUBLIC RELEASE

          The contracting officer should require SBIR firms to identify, by name, phone
          number, and e-mail address, the personnel who worked on the research project
          during the reporting period in progress reports.

   The Office of Procurement would have to approve the above control procedure because
   the contracting officer would have to add the requirement to the SBIR contract. For the
   control procedure to operate properly, technical officers would have to review progress
   reports and enter the reports in the Electronic Handbook.

   Neither SBA nor GSA has implemented automated controls in their databases, thus users
   such as NASA technical evaluators cannot perform automated searches to identify
   potential instances of duplicate SBIR awards, duplicate deliverables, or violations of
   SBIR Program requirements. All Federal agencies participating in the SBIR Program
   would benefit from being able to use the SBA and GSA databases for data mining.

   However, the SBIR Program Office lacks authority to implement automated controls in
   external databases. Until SBA and GSA make automated controls available for all users
   of their databases, the SBIR Program Office can obtain access from SBA and GSA and
   apply data mining procedures to data contained in the Electronic Handbook, Tech-Net,
   and the Federal Procurement Data System.

   For example, as part of our fieldwork, we obtained access to NASA’s Electronic
   Handbook, SBA’s TECH-Net, and GSA’s Federal Procurement Data System databases
   and applied data mining procedures. Our data mining uncovered potential instances of
   duplicate SBIR awards, duplicate deliverables to multiple agencies, and violation of
   SBIR Program requirements. We performed two data mining tests that identified
   potential instances of duplicate awards and duplicate deliverables with a combined value
   of approximately $28.6 million.

         The first test searched the Electronic Handbook and SBA Tech-Net databases for
          research summaries from program years 2004 to 2008 that contained the terms
          “lithium batteries.” We grouped proposal summaries by firm. For each firm, we
          compared proposal summaries from the two databases and associated proposal
          summaries that contained the same or similar content. The test identified 31 firms
          that received 98 contracts worth approximately $26.8 million for what appeared to
          be the same or similar research.

         The second test searched the SBA Tech-Net and the GSA Federal Procurement
          Data Systems databases for research summaries from program years 2004 to 2008
          that contained the terms “nuclear fusion.” We grouped proposal summaries by
          firm. For each firm, we compared proposal summaries from the two databases
          and associated proposal summaries with the same or similar content. The test
          identified two firms with five awards worth approximately $1.8 million for what
          appeared to be the same or similar research.




REPORT No. IG-11-010-R                                                                         29
     REDACTED FOR PUBLIC RELEASE                                                          RESULTS


Program Remains Vulnerable to Fraud and Abuse

     Unless NASA adopts additional internal controls, the NASA SBIR Program will remain
     vulnerable to fraud and abuse such as duplicate awards, duplicate deliverables, violations
     of SBA requirements, significant differences between actual and proposed costs, and
     misuse of SBIR funds. We identified 24 internal controls that could help address the
     SBIR Program’s vulnerabilities. However, as discussed above, NASA has implemented
     only 10 of these 24 controls. We believe that NASA should consider adopting the other
     14 controls we identified to further reduce the level of fraud and abuse in NASA’s SBIR
     Program.


Recommendations, Management’s Response, and OIG Evaluation
of Management’s Response

Recommendation 5.          The Chief Technologist should implement the 11 internal controls
we identified as critical for preventing and detecting fraud and abuse in the SBIR Program.

        Management’s Response. The Chief Technologist partially concurred and agreed to
        implement 9 of the 11 critical controls. He stated that NASA does not plan to
        implement the remaining 2 controls (requiring contracting officers to search online
        records or business databases to verify that the firm is American-owned and requiring
        contracting officers to request firms break out costs on invoices and certify the costs
        as accurate and allocable). The Chief Technologist stated that the first of these
        controls duplicates procedures already in place in the Central Contractor Registration
        database. He stated that the procedure suggested in the second control cannot be
        implemented on fixed-price contracts.

        Additionally, the Chief Technologist noted that 3 of the 11 controls involve other
        agencies and that he will initiate discussions with those agencies to develop a plan for
        partial implementation of the controls at NASA. The Chief Technologist expects to
        implement the 9 critical controls by September 30, 2011, and promised to initiate
        discussions with SBA by March 2011.

        Evaluation of Management’s Response. The proposed action is responsive to our
        recommendation. We agree that the first control duplicates procedures already in
        place and that the second control cannot be implemented on fixed-price contracts.
        Accordingly, the recommendation is resolved and will be closed upon completion and
        verification of the proposed corrective action.

Recommendation 6.       The Chief Technologist should evaluate implementation costs and
benefits to NASA for the remaining 7 controls we identified, and for any additional controls
being considered by management, and implement those controls where benefits exceed
costs.

        Management’s Response. The Chief Technologist partially concurred with this
        recommendation and agreed to evaluate 1 of the 7 noncritical controls (control 6) but


30                                                                        REPORT No. IG-11-010-R
RESULTS                                        REDACTED FOR PUBLIC RELEASE

      deemed the other 6 noncritical controls not feasible. The Chief Technologist stated
      that the evaluation of control 6 is dependent on successful implementation of a central
      repository of research reports and did not estimate a completion date. He deemed the
      other 6 controls as not feasible because the procedures either duplicate procedures
      already in place (controls 11 and 13) or said they cannot be implemented on fixed-
      price contracts (controls 20, 21, 24, and 25). In discussions held after receiving the
      Agency’s response, management officials stated that the Chief Technologist deemed
      controls 20, 21, 24, and 25 as not feasible because the controls required officials to
      apply procedures to all SBIR contracts. Officials stated that procedures for these
      controls should be applied only to SBIR contracts that have been identified as at risk
      for fraud, waste, and abuse.

      Evaluation of Management’s Response. The proposed action is responsive to our
      recommendation. We agree that controls 11 and 13 duplicate procedures already in
      place and that officials could apply procedures for controls 20, 21, 24, and 25 only to
      SBIR contracts they have identified as at risk of fraud, waste, and abuse. Therefore,
      the recommendation is resolved and will be closed upon completion and verification
      of the proposed action.

Recommendation 7.       The Chief Technologist should contact the SBA and GSA to
discuss implementing automated controls in databases owned by those agencies.

      Management’s Response. The Chief Technologist concurred, stating that NASA
      will meet with the SBA and GSA to discuss implementing automated controls in their
      databases. Management expects to complete the proposed action by June 30, 2011.

      Evaluation of Management’s Response. The proposed action is responsive. The
      recommendation is resolved and will be closed upon completion and verification of
      the proposed corrective action.




REPORT No. IG-11-010-R                                                                          31
APPENDIXES                                    REDACTED FOR PUBLIC RELEASE




                                                                           APPENDIX A


Scope and Methodology

   We performed this audit from September 2009 through November 2010 in accordance
   with generally accepted government auditing standards. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based on the objectives. We believe
   that the evidence obtained during this audit provides a reasonable basis for our findings
   and conclusions based on our objectives.

   We limited the scope of our review to the evaluation and selection, contract award, and
   the post-award administration stages because we assessed them as most vulnerable to
   fraud, waste, and abuse. We did not review the solicitation and contract close-out stages.

   To meet our audit objectives, we selected a statistical sample of 67 program year 2008
   SBIR awards for review. The sample consisted of 36 Phase 1 awards and 31 Phase 2
   awards. We did not review Phase 3 awards because the Agency does not maintain
   reliable records identifying Phase 3 activity. Details of the audit’s sampling methodology
   are provided in Appendix C.

   To assess whether NASA performed adequate due diligence to identify unallowable and
   unsupported costs, we:

         reviewed regulations governing the allowability of costs including the FAR and
          2008 NASA SBIR Solicitation;

         interviewed SBIR Program officials, procurement officials, technical evaluators,
          contracting officer technical representatives, and contracting support personnel to
          identify procedures for reviewing and awarding costs; and

         reviewed procurement files for a randomly selected sample of 67 program year
          2008 SBIR awards to assess whether costs were allowable and properly
          supported.

   To assess whether management had established adequate criteria and procedures for
   selecting SBIR awards based on best value, we:

         reviewed FAR Part 15, “Contracting by Negotiation,” and FAR Subpart 42.15,
          “Contractor Performance Information,” July 2008, the NASA, “SBIR Proposal
          Evaluation Guidelines,” and 2008 NASA SBIR Solicitation;




REPORT NO. IG-11-010-R                                                                          32
APPENDIX A                                    REDACTED FOR PUBLIC RELEASE



         interviewed SBIR Program officials to obtain an understanding of how past
          performance information is used in the evaluation and selection process; and

         analyzed procurement files for a randomly selected sample of 31 program year
          2008 SBIR Phase 2 awards to determine whether management had applied
          controls for selecting SBIR contracts.

   To assess whether internal controls were adequate to prevent and detect fraud, waste, and
   abuse in the SBIR Program, we:

         analyzed SBIR-related investigations to identify SBIR frauds and abuses;

         reviewed internal control statutes, regulations, policies, and guidance to determine
          requirements and methodologies for evaluating controls; Agency control
          assessments and presentations to determine the Agency’s plans for additional
          controls; and guides on data mining to define data mining;

         identified and analyzed SBIR fraud risks to determine whether existing controls
          prevent and detect SBIR frauds and abuses; and

         performed beta tests of automated controls that involve data mining to identify
          potential instances of duplicate SBIR awards, duplicate deliverables, and
          violations of SBIR Program requirements.

   We performed this review at NASA Headquarters, Ames Research Center, Langley
   Research Center, and Stennis Space Center.

   Use of Computer-Processed Data. The audit used data from three databases: (1) the
   NASA Electronic Handbook is accessible by NASA personnel and SBIR proposers. The
   Electronic Handbook is used for all SBIR transactions, such as proposal submissions,
   proposal evaluations, and documentation. We used Electronic Handbook data from 2004
   through 2008 (https://ehb8.gsfc.nasa.gov/sbir/logon.jsp); (2) the SBA TECH-Net
   database contains data on SBIR awards that was submitted by participating Federal
   agencies. We used data from 2004 through 2008
   (http://www.sba.gov/aboutsba/sbaprograms/sbir/technet/index.html); (3) the GSA Federal
   Procurement Data System database contains data on federally funded awards and grants.
   We used data from 2004 through 2008 (https://www.fpds.gov/fpdsng_cms/).

   We used the NASA Electronic Handbook to obtain statistical random samples. We
   established data reliability for our statistical random samples by comparing data we
   obtained from the Electronic Handbook to source documents. We used the Handbook,
   TECH-Net, and Federal Procurement Data System databases to perform data mining. We
   did not evaluate the general and application controls of each database. To establish data
   reliability for data mining, we compared data we obtained from the Handbook to data we
   obtained from the SBA TECH-Net database. We concluded that data from the three
   databases was sufficiently reliable to support our audit conclusions.


REPORT No. IG-11-010-R                                                                           33
REDACTED FOR PUBLIC RELEASE                                                      APPENDIX A



Review of Internal Controls

     For our review of internal controls, we used guidance from OMB Circular A-123,
     “Management’s Responsibility for Internal Control,” December 21, 2004, and the
     “Circular A-123 Implementation Guide,” Chief Financial Officers’ Council, July 2005.
     We also used Government Accountability Office’s “Standards for Internal Control in the
     Federal Government,” November 1999; “Internal Control Management and Evaluation
     Tool,” August 2001; and Audit Guide to Auditing and Investigating the Internal Control
     of Government Purchase Card Programs,” November 2003. Specifically:

           We assessed whether the control environment indicated management’s support
            for internal control. We found senior Program officials voiced strong support for
            internal control and established an effective organizational structure that
            designated specific personnel responsible for policy, program management,
            evaluations, selections, and contract oversight. Program officials required firms
            to submit certifications as a means to prevent duplicate awards and violations of
            SBIR Program requirements.

           We determined whether internal controls in the evaluation and selection, contract
            award, and post-award administration sub processes provided reasonable
            assurance that management would achieve program management requirements.
            For the evaluation, we identified 23 program management requirements from
            statutes, regulations, policies, and guidelines. We found that internal controls
            provided reasonable assurance that management would achieve 21 of 23
            requirements (91.3 percent). Internal controls were deficient in pricing analysis
            of SBIR awards and the use of past performance information in selecting
            proposals for award.

           We determined whether internal controls provided reasonable assurance that
            management would prevent and detect SBIR frauds and abuses. To identify
            specific SBIR frauds and abuses, we analyzed Government-wide investigations
            since 1997. To identify controls that would prevent and detect specific SBIR
            frauds and abuses, we found points in NASA’s SBIR process where a specific
            fraud or abuse were most likely to occur, identified procedures that would have
            prevented or detected the fraud or abuse, confirmed procedures with OIG fraud
            investigators, and determined whether the procedures were in place or missing
            from the SBIR process. We found 14 of 24 controls (58 percent) to prevent and
            detect types of fraud and abuse prevalent in SBIR Programs were missing from
            the SBIR process.

           We completed a control risk assessment to distinguish controls that are critical
            from controls that are not critical but helpful in fraud prevention and detection.
            The control risk assessment evaluated the probability that the related fraud would
            occur, the impact to NASA’s SBIR Program should the fraud occur, and the
            control’s implementation costs.



34                                                                       REPORT No. IG-11-010-R
APPENDIX A                                    REDACTED FOR PUBLIC RELEASE



         We tested compliance with existing controls in the evaluation and selection,
          contract award, and post-award administration sub processes. Our tests found that
          personnel followed 356 of the 358 existing controls (99.4 percent) in the sub
          processes.

Prior Coverage

   During the past 6 years, the NASA Office of Inspector General, Government
   Accountability Office, National Research Council, and Department of Energy issued four
   reports of particular relevance to the subject of this report. Unrestricted reports can be
   accessed over the Internet at http://www.gao.gov, http://www.nap.edu/catalog, and
   http://www.ig.energy.gov.

   NASA Office of Inspector General

   “Management Alert – Concerns Relating to NASA Small Business Innovation Research
   (SBIR) Contracts” (April 28, 2004)

   Government Accountability Office

   “Small Business Innovation Research: Observations on Agencies' Data Collection and
   Eligibility Determination Efforts” (GAO-09-956T, August 2009)

   National Research Council

   “An Assessment of the Small Business Innovation Research Program at the National
   Aeronautics and Space Administration” (2009)

   Department of Energy

   “Management Controls over Monitoring and Closeout of Small Business Innovation
   Research Phase II Grants” (OAS-M-08-09, July 2008)




REPORT No. IG-11-010-R                                                                          35
     REDACTED FOR PUBLIC RELEASE                                                                   APPENDIX B




                                                                                    QUESTIONED COSTS

                                 Questioned Costs in the Sample of Phase 1 Awards
                                    (All amounts rounded to the nearest dollar)
                                                                                                             Total
     Sample                               Award           Unallowable         Unallowable    Unallocable   Questioned
     Number       Award Number             Value            Travel            Equipment        Costs         Costs
       1          NNX09C███               $99,978
       2          NNX09C███                99,962                               $1,195                       $1,195
       3          NNX09C███                99,886           $5,109*                                           5,109
       4          NNX09C███               100,000                                               $352            352
       5          NNX09C███                99,999
       6          NNX09C███                99,838
       7          NNX09C███               100,000
       8          NNX09C███               100,000
       9          NNX09C███                99,964                                1,103        10,330*        11,433
       10         NNX09C███               100,000                               12,986*                      12,986
       11         NNX09C███               100,000
       12         NNX09C███                99,995
       13         NNX09C███                97,316
       14         NNX09C███                99,994            1,646*                                           1,646
       15         NNX09C███                99,908
       16         NNX09C███                99,918
       17         NNX09C███                99,972
       18         NNX09C███               100,000
       19         NNX09C███                99,225
       20         NNX09C███                99,985
       21         NNX09C███               100,000
       22         NNX09C███                99,678
       23         NNX09C███               100,000              597                                             597
       24         NNX09C███                99,989
       25         NNX09C███                99,695
       26         NNX09C███               100,000
       27         NNX09C███                99,968
       28         NNX09C███                99,915
       29         NNX09C███                99,288
       30         NNX09C███                99,995                                              8,974          8,974
       31         NNX09C███               100,000
       32         NNX09C███                99,998
       33         NNX09C███                99,833
       34         NNX09C███                99,681
       35         NNX09C███               100,000            1,903                                            1,903
       36         NNX09C███               100,000
        Totals                           $3,593,980         $9,255             $15,283       $19,656        $44,195
     * The nature of the questioned cost is described in the section beginning on page 9.




36                                                                                          REPORT No. IG-11-010-R
APPENDIX B                                                    REDACTED FOR PUBLIC RELEASE




                                Questioned Costs in the Sample of Phase 2 Awards
                                   (All amounts rounded to the nearest dollar)
                                                                                                              Total
     Sample                                                Unallowable        Unallocable    Unsupported    Questioned
     Number        Award Number          Award Value       Equipment            Costs           Costs         Costs
        1           NNX09C███              $599,988                                              $42,182*      $42,182
        2           NNX09C███               599,982
        3           NNX09C███               600,000
        4           NNX09C███               596,505                               $89,923*        75,750*      165,673
        5           NNX09C███               599,993
        6           NNX09C███               600,000             $76,620                                         76,620
        7           NNX09C███               597,295
        8           NNX09C███               600,000              56,618*                                        56,618
        9           NNX09C███               599,995
       10           NNX09C███               600,000                                 38,637                      38,637
       11           NNX09C███               600,000
       12           NNX09C███               599,899
       13           NNX09C███               599,999
       14           NNX09C███               599,946
       15           NNX09C███               599,939
       16           NNX09C███               599,941
       17           NNX09C███               599,842
       18           NNX09C███               599,993
       19           NNX09C███               599,994                                 15,070                      15,070
       20           NNX09C███               599,955
       21           NNX09C███               600,000
       22           NNX09C███               599,315                                  3,729                       3,729
       23           NNX09C███               599,962
       24           NNX09C███               599,977
       25           NNX09C███               599,418
       26           NNX09C███               599,952
       27           NNX09C███               599,950
       28           NNX09C███               599,945
       29           NNX09C███               600,000
       30           NNX09C███               599,999
       31           NNX09C███               600,000              85,833                                         85,833
          Totals                         $18,591,784           $219,071          $147,358       $117,932      $484,361
    * The nature of the questioned cost is described in the section beginning on page 9.




REPORT No. IG-11-010-R                                                                                              37
     REDACTED FOR PUBLIC RELEASE                                                                       APPENDIX C




                                                             SAMPLING METHODOLOGY AND
                                                                 PROJECTION OF RESULTS


     For our audit, we used the stratified sample design with the method of selection being
     simple random sample. We evaluated simple random samples for attributes based on
     sample award (either passes or fails, depending on the audit substantive tests) and
     evaluated our variable data based on the dollar amount of the award that failed the
     substantive tests. We used a Normal distribution because it is the only distribution that
     allows combining stratified samples, and we wanted to combine our variable data from
     program year 2008 SBIR Phase 1 and 2 to project a total of questionable costs for the
     program year 2008 SBIR process. In addition, the Normal distribution works well for
     simple random samples of at least 30 if the error count in the sample is at least 5 but not
     more than the sample less 5, and if the variability in the data is not excessive. For
     example, if the sample is 36, the error count should be between 6 and 31.

     We are 85 percent confident that the dollar value of errors is between $1.4 million and
     $3.9 million. This is equivalent to being 92.5 percent confident that the dollar value of
     errors is at least $1.4 million. We are 85 percent confident that the error count is between
     86 and 162. This is equivalent to being 92.5 percent confident that the error count is at
     least 86.

     Based on documentary evidence and an analysis of 67 of 493 statistically selected SBIR
     contract awards, we found that 17 of the program year 2008 SBIR contract awards had
     unallowable and unsupported costs of $528,555.28 Based on statistical analysis, we are
     85 percent confident that between 17 and 33 percent of the total program year 2008 SBIR
     contract awards had questionable costs projected between 1 and 3 percent of the total
     program year 2008 SBIR contract dollars.29,30 Properly validating contractor
     performance prior to and during the program year 2008 SBIR process could result in
     potential cost avoidance of at least $13.32 million over the next 5 years.

     Based on documentary evidence and an analysis of 36 of 350 statistically selected SBIR
     contract awards for the program year 2008 Phase 1 SBIR process, we found that 9 SBIR
     contract awards had unallowable costs of $44,195. Based on statistical analysis, we are
     85 percent confident that between 15 and 35 percent of the program year 2008 Phase 1
     SBIR contract awards had questionable costs projected between 1 and 2 percent of the

     28
          The methodology used for sample selection was random; the sampled items were stratified by phase for
          precision, the extent of substantive testing conducted, and or the type of evidence obtained/examined in
          the course of the validation.
     29
          Statistical attribute projection, lower bound 86 of 493 contract awards, upper bound 162 of 493 contract
          awards.
     30
          Statistical variable projection, lower bound $1,444,670.92 of $120,392,389.12 contract dollars, upper
          bound $3,883,284.62 of $120,392,389.12 contract dollars.



38                                                                                        REPORT No. IG-11-010-R
APPENDIX C                                                 REDACTED FOR PUBLIC RELEASE



   program year 2008 Phase 1 SBIR contract dollars.31, 32 Properly validating contractor
   performance prior to and during the program year 2008 Phase 1 SBIR process could
   result in potential cost avoidance of at least $2.15 million over the next 5 years.

   Based on documentary evidence and an analysis of 31 of 143 statistically selected SBIR
   contract awards for the program year 2008 Phase 2 SBIR process, we found that 8 SBIR
   contract awards had unallowable and unsupported costs of $484,361. Based on statistical
   analysis, we are 85 percent confident that between 15 and 36 percent of the program year
   2008 Phase 2 SBIR contract awards had questionable costs projected between 1 and 4
   percent of the program year 2008 Phase 2 SBIR contract dollars.33, 34 Properly validating
   contractor performance prior to and during the program year 2008 Phase 2 SBIR process
   could result in potential cost avoidance of at least $11.17 million over the next 5 years.

   Attribute Projections in 1 Year, Based on 85 Percent Confidence Level
     Program                                                     Lower                                 Upper
    Year 2008        Universe         Sample        Errors       Bound                   Mean          Bound
   Phase 1              350             36               9          53                     88           122
   Phase 2              143             31               8          22                     37            51
    Totals              493             67              17          75                    125           173

   Attribute Error Projections Over a 5-Year Budget, Based on 85 Percent Confidence Level
     Program
    Years 2010-                                                 Lower                     Upper
       2014          Universe        Sample       Errors        Bound         Mean        Bound
   Phase 1            1,750            180            45          265          440         610
   Phase 2              715            155            40          110          185         255
    Totals            2,465            335            85          375          625         865

   Variable Projections in 1 Year, Based on 85 Percent Confidence Level
     Program                                                     Lower                      Upper
    Year 2008        Universe        Sample         Errors       Bound        Mean          Bound
   Phase 1        $34,742,214       $3,593,980        $44,192     $174,508     $429,669     $684,830
   Phase 2          85,650,176      18,591,784        484,361    1,041,594    2,234,309    3,427,024
    Totals        $120,392,390 $22,185,764.        $528,553.00 $1,216,102.0 $2,663,978.0 $4,111,854.0
                             .00            00                           0            0            0
   All amounts rounded to the nearest dollar.




   31
        Statistical projection, lower bound 53 of 350 contract awards, upper bound 122 of 350 contract awards.
   32
        Statistical variable projection, lower bound $174,507.72 of $34,742,213.53 contract dollars, upper bound
        $684,829.98 of $34,742,213.53 contract dollars.
   33
        Statistical projection, lower bound 22 of 143 contract awards, upper bound 51 of 143 contract awards.
   34
        Statistical variable projection, lower bound $1,041,593.53 of $85,650,175.59 contract dollars, upper
        bound $3,427,024.35 of $85,650,175.59 contract dollars.



REPORT No. IG-11-010-R                                                                                             39
     REDACTED FOR PUBLIC RELEASE                                                         APPENDIX C



     Variable Projections Over a 5-Year Budget, Based on 85 Percent Confidence Level
     Program
      Years
      2010-                                                    Lower                       Upper
       2014       Universe         Sample        Errors        Bound          Mean         Bound
     Phase 1    $173,711,068 $17,969,901         $220,958     $872,539     $2,148,344    $3,424,150
     Phase 2    428,250,878      92,958,920      2,421,803    5,207,968    11,171,545    17,135,122
      Totals    $601,961,946 $110,928,821       $2,642,761. $6,080,507.0 $13,319,889.   $20,559,272.
                          .00             .00           00            0            00            00
     All amounts rounded to the nearest dollar.




40                                                                           REPORT No. IG-11-010-R
APPENDIX D                                               REDACTED FOR PUBLIC RELEASE



                                                              CONTROLS TO PREVENT AND
                                                               DETECT FRAUD AND ABUSE

   We analyzed SBIR-related investigations conducted by NASA and other agencies since
   1997 and identified instances of fraud and abuse that we divided into six categories of
   types of fraud and abuse prevalent in SBIR Programs (see page 22). To identify controls
   that would prevent and detect specific SBIR frauds and abuses, we found points in
   NASA’s SBIR process where a specific fraud or abuse was most likely to occur,
   identified procedures that would prevent or detect the fraud or abuse, confirmed
   procedures with OIG fraud investigators. We then determined whether the procedures
   were in place or missing from NASA’s SBIR process.

   We identified 28 controls that could prevent or detect the types of fraud and abuse
   categorized. In response to management’s comments on the draft of this report, we are
   withdrawing 3 of the 28 controls (Controls 10, 11, and 13) because they duplicated
   procedures already in place and 1 more control (Control 19) because procedures cannot
   be implemented on fixed-price contracts. We show the withdrawn controls as not
   applicable (NA) in the table.

   For the 24 remaining controls, we classified 19 controls as critical and 5 controls as
   noncritical but helpful in fraud prevention and detection. We defined a critical control as
   a control for which the related fraud has a (1) high probability of occurring, (2) a high
   impact to NASA should it occur, or (3) a medium to high probability of occurring, a
   medium to high impact to NASA, and a low implementation cost. We found that 10 of
   19 critical controls were already part of NASA’s SBIR process, while 9 of 19 critical
   controls were not. In the following six tables we list, by fraud category, the 24 controls,
   we describe the control, identify it as critical or noncritical, and show whether the control
   was in place or missing from NASA’s SBIR process using the following legend – critical:
   yes = Y or no = N; implemented = , not implemented =  .

       Fraud Category 1: Firms or Principal Investigators Received Duplicate Awards for Same Research
                                                                                                              Imple-
                                             Control                                               Critical   mented
  1.   Firm certifies that the SBIR research proposal was not funded by another Federal
       agency.
                                                                                                     Y         
  2.   Firm provides a list of Federally funded awards and certifies that the list is accurate and
       complete.
                                                                                                     Y         
  3.   SBIR Program Management Office performs automated word search of SBIR research
       proposals submitted to NASA that year. Program Management searches proposals by
                                                                                                     Y         
       firm and by PI. Automated word search provides a report of duplicate SBIR proposals
       that the firm or PI submitted to NASA for a given solicitation. Program Management
       Office reviews proposals to verify whether firms submitted duplicate proposals.
       Program Management Office rejects duplicate proposals.




REPORT No. IG-11-010-R                                                                                           41
     REDACTED FOR PUBLIC RELEASE                                                                      APPENDIX D


          Fraud Category 1: Firms or Principal Investigators Received Duplicate Awards for Same Research
                                                    (continues)
                                                                                                               Imple-
                                                 Control                                         Critical      mented
     4.   SBIR Program Management Office performs automated word search of (1) SBIR
          research proposals submitted to NASA and (2) research proposals funded by other
                                                                                                   Y            
          SBIR awards. Program Management Office uses the NASA Electronic Handbook and
          the Small Business Administration databases. Automated word search produces a
          report of research proposals submitted to NASA that appear to duplicate research
          proposals funded through other SBIR awards. SBIR Program Management Office
          enlists technical personnel to compare research proposals. Technical personnel verify
          whether research proposal that firm submitted to NASA duplicated research proposal
          that firm received funding for from an SBIR award with another Federal agency.
     5.   SBIR Program Management Office performs automated word search of (1) SBIR
          research proposals submitted to NASA, (2) research proposals funded by a NASA
                                                                                                   Y            
          grant or contract, and (3) research proposals funded by another Federal agency under a
          grant or contract. Program Management Office uses the NASA Electronic Handbook
          database, NASA grant and contract databases, and the General Services Administration
          Federal Procurement Data Systems database. Automated word search produces a
          report of research proposals submitted to NASA that appear to duplicate research
          proposals funded through another Federal grant or contract. Program Management
          Office enlists technical personnel to compare research proposals. Technical personnel
          verify whether research proposal that firm submitted to NASA duplicated research
          proposal that firm received funding for from another Federal grant or contract.


            Fraud Category 2: Contractors Submitted Questionable Research Product
                                                                                                               Imple-
                                                 Control                                            Critical   mented
     6.   SBIR Program Management Office performs automated word search of (1) SBIR
          research reports submitted to NASA that year, (2) research reports submitted to NASA
                                                                                                      N          
          under a grant or contract, and (3) research reports submitted to other Federal agencies
          under a grant or contract. Program Management Office uses the NASA Electronic
          Handbook database, NASA grant and contract databases, and the General Services
          Administration Federal Procurement Data Systems database. Automated word search
          produces a report of research reports submitted to NASA that appear to duplicate
          research reports submitted under another Federal grant or contract. SBIR Program
          enlists technical personnel to compare the research reports. Technical personnel verify
          whether research reports that firm submitted to NASA duplicated research reports that
          firm had submitted under another Federal grant or contract.
     7.   SBIR Program appoints technical officer with expertise in related or same subject area
          as SBIR research proposal. Technical officer assesses progress and research reports
                                                                                                       Y         
          that firm submits under NASA SBIR contract.




42                                                                                      REPORT No. IG-11-010-R
APPENDIX D                                              REDACTED FOR PUBLIC RELEASE

        Fraud Category 3: Firms and Principal Investigators Violated SBIR Program Requirements
                                                                                                     Imple-
                                            Control                                         Critical mented
  8. For each PI being considered for contract award:                                         Y       
      SBIR Program Management Office performs automated search of SBA Tech-Net
       database to obtain a report of SBIR awards during a period;
      Program Management Office uses an automated procedure to group the report of
       SBIR awards into SBIR awards, by PI;
      Program Management Office uses an automated procedure to identify PIs that have
       more than 2 SBIR awards during the period;
      Contracting officer requests contractor to provide percentage of time that PI worked
       for firm during the period;
      Program Management Office obtains percentages of time PI spent on SBIR awards
       that other Federal agencies funded during the period;
      Program Management Office and technical officer determine whether percentages of
       time appear realistic for PI or indicate a potential abuse (mischarging, unreported
       use of subcontractor, or failure to perform research). SBIR Program Management
       Office refers questionable firms, PI, and contracts to the OIG.
  9.  SBIR Program Management Office requires firm to certify that the entity is American-        Y     
      owned.
  10. Prior to contract award, contracting officer searches online state incorporation records,   Y    (NA)
      online local business license records, or Dun & Bradstreet databases to verify that firm
      is American-owned. SBIR Program reviews Form A and certifications for those firms
      that the search identified as not American-owned. SBIR Program refers firms that
      submitted false certifications to the OIG.
  11. For each firm being considered for an award, contracting officer searches databases of      N    (NA)
      addresses and locations (Google Earth, Yahoo Maps; e.g.) to determine whether place
      of business actually exists. For firms identified as potential problem during search,
      contracting officer searches local business records, Dun & Bradstreet databases, or
      state records to confirm that business actually exists. Contracting officer refers
      problematic firms to the OIG.
  12. Contracting officer searches SBA database to verify that firm is a small business or        Y     
      woman-owned entity.
  13. Contracting officer searches Dun & Bradstreet database to verify that SBIR firm does        N    (NA)
      not exceed small business limits.
  14. SBIR Program Management Office requires firm to certify that it met subcontracting
      limits for SBIR Phase 1 and Phase 2 contracts.
                                                                                                  Y     

          Fraud Category 4: Actual Effort and Costs Differed Materially from What Was Negotiated
                                                                                                        Imple-
                                            Control                                            Critical mented
  15. Contracting officer should verify the firm’s labor rates with the Defense Contract Audit
      Agency for firms that were audited; or with other funding agencies for firms that the
                                                                                                 Y       
      Defense Contract Audit Agency has not audited.
  16. Technical officer assesses progress and final reports and reports indicators of
      substandard performance to the contracting officer.
                                                                                                 Y       
  17. Technical officer prepares final performance file on Phase 2 contractor.                    Y     



REPORT No. IG-11-010-R                                                                                    43
     REDACTED FOR PUBLIC RELEASE                                                                     APPENDIX D

                                 Fraud Category 5: Contractors Misused SBIR Funds
                                                                                                              Imple-
                                               Control                                             Critical   mented
     18. SBIR Program Management Office and technical officers assess indicators that firm
         will have excess cash on a NASA SBIR contract. Excess cash occurs when firm’s
                                                                                                      Y        
         actual expenses are materially less than proposed. Program Management Office refers
         problematic firms to the OIG. Also, Program Management Office assesses the
         following indicators:
         Firm demonstrated substandard performance. Substandard performance can indicate
          firm spent less on actual labor than it proposed.
         Firm recycled or plagiarized reports. Recycled reports can indicate that firm had to
          submit report from prior research as the deliverable because the firm did not spend
          contract funds on researcher labor.
         Firm submitted duplicate proposals. Duplicate proposals can indicate that firm did
          not use actually conduct research.
         PI has an unreasonable number of awards for period of contract. An unreasonable
          number of awards can indicate that PI did not actually perform research, firm used
          subcontractor to perform research, or firm recycled old research.
         Firm lacks a legitimate business facility. Lack of a business facility can indicate
          firm did little, if any, actual research.
         Firm proposed higher labor rates than it actually paid. Higher proposed labor rates
          can indicate that firm knowingly proposed lower rates to provide firm excess cash.
     19. Contracting officer requires firms to break out costs on each invoice for the SBIR           Y       (NA)
         contract and to certify the costs. Break out should show direct labor, material,
         subcontract, and indirect costs. Direct labor costs should identify each employee and
         show their position, the hours the employee worked, and the related labor cost. The
         firm should certify that costs are accurate and allocable to the contract.
     20. SBIR Program Management Office reviews indicators in Control No. 18, above,
         against the firm’s cost-type contracts. For each SBIR contract identified at risk for
                                                                                                     N         
         fraud, waste, or abuse, the SBIR Program Management Office will assess whether the
         firm may have applied overruns on a NASA SBIR contract to a cost-type contract.
         SBIR Program Management Office refers problematic firms to the OIG.
     21. SBIR Program Management Office reviews indicators in Control No. 18, above,
         against the firm’s contracts that have large indirect accounts. For each SBIR contract
                                                                                                     N         
         identified at risk for fraud, waste, or abuse, the SBIR Program Management Office will
         assess whether the firm may have applied overruns on a NASA SBIR contract to
         indirect accounts. SBIR Program Management Office refers problematic firms to the
         OIG.
     22. Contracting officer requires SBIR firms to describe researchers in progress reports.
         Firms should identify personnel who worked on the SBIR research during the reporting
                                                                                                      Y        
         period and describe their role. Contracting officer requires SBIR firms to provide the
         names, phone numbers, and email addresses of the PI, researchers, and subcontract
         researchers.
     23. Contracting officer requires SBIR firms to submit evidence with the firm’s invoice that
         firm has not billed NASA for nonexistent employees. Evidence could include
                                                                                                      Y        
         employee addresses or email, written employment agreement, or other support.
     24. SBIR Program Management Office reviews indicators in Control No. 18, above. For
         each SBIR contract identified at risk for fraud, waste, or abuse, the SBIR Program
                                                                                                     N         
         Management Office will assess whether the firm may have charged unallowable costs
         to a NASA SBIR contract. SBIR Program Management Office refers problematic
         firms to the OIG.




44                                                                                    REPORT No. IG-11-010-R
APPENDIX D                                             REDACTED FOR PUBLIC RELEASE

                              Fraud Category 5: Contractors Misused SBIR Funds
                                                      (continues)
  25. SBIR Program Management Office reviews indicators in Control No. 18. For each
      SBIR contract identified at risk for fraud, waste, or abuse, the SBIR Program
                                                                                                N         
      Management Office will assess whether the firm may have used funds from a NASA
      SBIR contract to support a commercial contract. SBIR Program Management Office
      refers problematic firms to the OIG.
  26. Technical officer compares actual labor rates reported on invoice with verified rates
      from Control No. 15, above.
                                                                                                 Y        

            Fraud Category 6: Technical Personnel Were Involved in Procurement Integrity Issues
                                                                                                         Imple-
                                            Control                                           Critical   mented
  27. External evaluators submit conflict of interest statements. SBIR Program Management        Y        
      Office reviews statements for conflicts.
  28. NASA technical personnel submit conflict of interest statements annually. Statements       Y        
      are reviewed for conflicts.




REPORT No. IG-11-010-R                                                                                      45
APPENDIX E



                         MANAGEMENT’S COMMENTS




REPORT No. IG-11-010-R                           47
             APPENDIX E




48   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   49
             APPENDIX E




50   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   51
             APPENDIX E




52   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   53
             APPENDIX E




54   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   55
             APPENDIX E




56   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   57
             APPENDIX E




58   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   59
             APPENDIX E




60   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   61
             APPENDIX E




62   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   63
             APPENDIX E




64   REPORT No. IG-11-010-R
APPENDIX E




REPORT No. IG-11-010-R   65
             APPENDIX E




66   REPORT No. IG-11-010-R
     REDACTED FOR PUBLIC RELEASE                                                 APPENDIX E




                                                           REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief Technologist
     Associate Administrator for Small Business Programs
     Assistant Administrator for Procurement
     Director, Innovative Partnerships Program Office

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




66                                                                   REPORT No. IG-11-010-R
                                            REDACTED FOR PUBLIC RELEASE




Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Nora Thompson, Project Manager
   Robert Rose, Auditor
   Jobenia Odum, Management Analyst
   James Pearce, Auditor
   Arnold Pettis, Data Mining, Statistician, Application Developer




REPORT No. IG-11-010-R                                                       67
 REDACTED FOR PUBLIC RELEASE                                                   JANUARY 12, 2011
                                                                          REPORT NO. IG-11-010-R




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
